Appellate Case: 20-1270

Document: 010110511947

64e
Page. 1
FILED
United States Court of Appeal
Tenth Circuit

Date Filed: 04/23/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

April 23, 2021
Christopher M. Wolpert
Clerk of Court

In re: GORDON NITKA,
Debtor.

GORDON BEECHER NITKA,
Plaintiff - Appellant,
No. 20-1270
(BAP No. CO 20-002)

v.
DEPARTMENT OF EDUCATION,
Defendant - Appellee.

ORDER AND JUDGMENT*

Before MORITZ, BALDOCK, and EID, Circuit Judges.
Gordon Nitka initiated an adversarial proceeding in bankruptcy court against
the Department of Education (“DOE”), seeking discharge of approximately $200,000
in law school student loans based on “undue hardship” under 11 U.S.C. § 523(a)(8).

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
FedrRTApp-Pr32rl-and-1-0th-Gir,Tl.-32.U-----------------------------------------------------

Annpnrliv C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 2

65e

The bankruptcy court granted summary judgment to DOE, and the Bankruptcy
Appellate Panel (“BAP”) affirmed. Nitka appeals pro se from the BAP’s decision.
Exercising jurisdiction under 28 U.S.C. § 158(d)(1), we affirm.

BACKGROUND
Nitka graduated from Colorado College in 2005 with degrees in English and
Biology. During college, he worked as a host for the school’s administration, a
physiology and anatomy tutor, a surgical paraprofessional, and a bartender and server
at a resort. After graduating, he continued working at the resort before taking a
position as the co-director of a hospitality center at the 2006 Winter Olympics in
Italy. Upon returning to Colorado, he resumed his jobs at the resort and also began
working in nightclubs, first as security and later as a manager.
In 2010, Nitka enrolled at Phoenix School of Law, later renamed the Arizona
Summit Law School. He financed his education with student loans, executing two
master promissory notes. While in school, he held several paid positions, including
in the legal field and as a fitness coach. After graduating, he worked as a contract
employee at a law firm, earning $25 per hour as a law clerk and rising to the rank of

i

« [W]e generally construe pro se pleadings liberally” but have not “extended]

the same courtesy to . . . licensed attorney[s].” Comm, on the Conduct ofAtt’ys v.
Oliver, 510 F.3d 1219, 1223 (10th Cir. 2007) (internal quotation marks omitted).
The parties dispute whether, and to what extent, we should liberally construe Nitka’s
filings considering he is a law school graduate but not a licensed attorney. Because
it does'not affect the outcome of the case, we liberally construe Nitka’s filings. But
he still must “follow the same rules of procedure that govern other litigants,” and we
“cannot take on the responsibility of serving as [his] attorney in constructing
arguments and searching {herrecoTd:,,-Garrett-v-Selby-Connor-Muddux-&^Janer.,-----425 F.3d 836, 840 (10th Cir. 2005) (internal quotation marks omitted).
2
Annonrliv C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 3

666

firm director. He took the Arizona bar exam twice but did not pass. To supplement
his income, Nitka (1) continued fitness coaching until November 2015, earning up
to $90 per hour; (2) served as an advisor to a start-up fitness company, earning
equity compensation; and (3) worked twenty to thirty hours per week selling
commission-based insurance for MassMutual from August 2014 to January 2018.
In May 2018, the law firm terminated Nitka’s employment. He has since been
unemployed, with the exception of earning approximately $3,000 over the course of a
couple months as a roofing salesman. He unsuccessfully applied for several jobs and
testified in May 2019 that he had ceased submitting applications, instead focusing his
time on (1) building a mobile phone application for the restaurant industry, and
(2) converting a bus into a vacation rental that he will park near ski resorts . He lives
rent-free with his mother and has about $32,000 in retirement accounts. When he has
income, he spends about $200 per month on food and $60 on a cell phone plan.
As of November 2019, Nitka’s student loan debt was $209,716.48. He made
no payments on the loans in 2013 and obtained a deferral for most of 2014. In June
2015, he began participating in an income-driven repayment program that reduced his
monthly obligation. Still, he did not make any payments in 2015, despite earning
$61,901, with an adjusted gross income of $39,156 and taxable income of $28,856.
In 2016, he made six payments of $21.82, totaling $130.92, although his gross
income was $83,000, with taxed Social Security earnings of $54,643 . He earned
$31,180 in 2017 and made five payments of $21.82, totaling $109.10. He made no
payments in 2018, when he earned $8,381, with an adjusted gross income of $8,010.
3
Annpnrliy C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 4

676

Nitka has paid a total of only $240.02, but DOE has asserted he remains eligible for
an income- based program, under which his balance would be forgiven after 25 years.
In July 2018, Nitka, then 36 years old, filed a petition under Chapter 7 of the
Bankruptcy Code and an adversary proceeding to have his loans discharged. After
several discovery disputes, DOE moved for summary judgment. Nitka opposed the
ion and moved for sanctions, claiming DOE made factual misrepresentations.
motion
The bankruptcy court denied Nitka’s motion for sanctions and granted DOE ’s motion
for summary judgment. The BAP affirmed, and Nitka appealed to this court.
DISCUSSION
“In our review of BAP decisions, we independently review the bankruptcy
court decision,” In re Albrecht, 233 F.3d 1258, 1260 (10th Cir. 2000), assessing legal
conclusions de novo and factual findings for clear error, see Borgman v. Dunckley
(In re Borgman), 698 F.3d 1255, 1259 & n.5 (10th Cir. 2012). Nitka raises several
challenges to the bankruptcy court’s judgment. None are persuasive.
I.

Procedural Rulings Prior to DOE Moving for Summary Judgment

First, Nitka contends the bankruptcy court erred in granting DOE’s motion
under Fed. R. Civ. P. 37 to prohibit him from using exhibits or witnesses, other than
himself, at trial due to his failure to fully and timely comply with the scheduling
order’s requirements for serving trial exhibits. As the BAP observed, the bankruptcy
court considered Nitka’s exhibits in ruling on DOE’s motion for summary judgment.
Because we conclude that the court properly granted summary judgment to DOE, the
issue of what evidence would be admitted at trial is moot.
4
Annonrliy C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page. 5

68c

Nitka also contends the bankruptcy court erred in forcing him to choose
between foregoing reliance on his medical conditions in support of his hardship claim
or submitting to reopened discovery. Specifically, as a result of Nitka s shifting
positions throughout the proceedings regarding his medical conditions and their
relation to his hardship claim, DOE moved to prohibit him under Fed. R. Civ. P. 37
from offering evidence of medical conditions or, alternatively, to reopen discovery to
seek information related to such conditions. The bankruptcy court found that Nitka
had abused the discovery process and gave him the option of foregoing reliance on
medical conditions or submitting to further discovery. Based on Nitka’s commitment
not to “rais[e] any medical issues in support of [his] case,” R., vol. 2 at 823, the court
denied the motion to reopen discovery and granted the motion to prohibit evidence of
medical conditions. Although Nitka now contends the court abused its discretion, he
made his choice and cannot complain of any invited error.2 See John Zink Co. v.
Zink, 241 F.3d 1256, 1259 (10th Cir. 2001) (“The invited error doctrine prevents a
party from inducing action by a court and later seeking reversal on the ground that
the requested action was error.” (internal quotation marks omitted)).
II.

Contents of DOE’s Motion for Summary Judgment

Next, Nitka contends that DOE made false statements of fact and that the
bankruptcy court erred in not granting his motion for sanctions. Because he moved

2 Nitka states, without argument or authority, that he was subjected to a
“forced waiver.”~SpltrOpening_Br\ar627_WenviH-not-consider-sueh~a-perfun^torycontention. See United States v. Wooten, 377 F.3d 1134, 1145 (10th Cir. 2004).
5
AnnonHiv C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 6

69e

for sanctions under Fed. R. Civ. P. 11, the court applied “Fed. R. Bankr. R. 9011,
which is derived from Fed. R. Civ. P. 11.” Masunaga v. Stoltenberg (In re Rex
Montis Silver Co.), 87 F.3d 435, 438 (10th Cir. 1996). The bankruptcy court denied
the motion because Nitka failed to follow the “safe harbor” provision, which requires
that the non-movant be given notice and an opportunity to cure the allegedly
offending conduct. Fed. R. Bank. P. 9011(c)(1)(A); cf Fed. R. Civ. P. 11(c)(2).
Nitka does not claim he complied with the “safe harbor” provision but, instead,
argues it does not apply because he filed his motion under Fed. R. Civ. P. 56(c)(2).
However, he based his motion only on Fed. R. Civ. P. 11(c)(2), with no mention of
Fed. R. Civ. P. 56(c)(2). See R., vol. 2 at 861. In any event, Fed. R. Civ. P. 56(c)(2),
which allows a party to object to a summary judgment motion, does not address
sanctions. Accordingly, we find no abuse of discretion by the bankruptcy court.3
Nitka also contends the bankruptcy court abused its discretion by not striking
the declaration of DOE loan analyst Christopher Bolander. He argues that DOE
offered Bolander as an expert under Fed. R. Evid. 702 and that because DOE
previously disclosed an expert, Bolander’s declaration violated the scheduling order,
which limited each side to one expert. Nitka also argues the court should have
struck the declaration because DOE did not disclose Bolander as an expert under
Fed. R. Civ. P. 26(a)(2)(A). However, “Bolander based his declaration on his

3 We decline to consider Nitka’s conclusory assertion, unsupported by
argument or authority, that the court erredin-n-ot-imposing-sanetions-sua-sponte^ee
Wooten, 377 F.3d at 1145.
6
AnnonHiy C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 7

70e

position at [DOE] and his review of [Nitka’s] loan information and payment history,”
and he “described facts as they pertain to [Nitka’s] student loan[s], including the
promissory loans, the outstanding balance, the payment history and switch to
alternative repayment plans, and details regarding [DOE s] options for repayment.
R., vol. 1 at 28. Our precedent suggests this testimony—if opinion testimony at
all4—was lay testimony under Fed. R. Evid. 701, not expert testimony under
Fed. R. Evid. 702, see Ryan Dev. Co., L.C. v. Ind. Lumbermens Mut. Ins. Co.,
711 F.3d 1165, 1170-71 (10th Cir. 2013) (noting “[a] lay witness accountant may
testify [under Fed. R. Evid. 701] on the basis of facts or data perceived in his role as
an accountant based on his personal knowledge of the company” (internal quotation
marks omitted)). Therefore, the bankruptcy court did not abuse its discretion in
refusing to strike the declaration.
Finally, Nitka objected to DOE’s motion for summary judgment on the
grounds that it relied on portions of his deposition transcript and that he lacked the
funds to obtain his own complete copy. In particular, he moved the court to deny or
delay ruling on the summary judgment motion because he could not “present facts
essential to justify its opposition” without a copy of the transcript. Fed. R. Civ. P.
56(d)(1). He insists he needed a copy because “DOE used select, out-of-context
excerpts.” Aplt. Opening Br. at 64. The court denied his request as (1) procedurally

4 See United States v. Kearn, 863 F.3d 1299, 1307 n.3 (10th Cir. 2017) (stating
Testimony "■prT)Viding““factS7-not-opinions721is-not-subjeGt-to-Eed.-R,-Ev-id._701_or_702).
7
AnnpmHix C.

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 8

defective, because it was not supported by an “affidavit or declaration,
Fed. R. Civ. P. 56(d); and (2) without merit, because Nitka knew or should know
what was said at his own deposition. He contests the procedural ruling but not the
merits ruling, and thus, his challenge to the denial of his Fed. R. Civ. P. 56(d)(1)
motion fails. See Bones v. Honeywell Int’l, Inc., 366 F.3d 869, 877 (10th Cir. 2004)
(affirming summary judgment where appellant failed to appeal alternative basis for
ruling).
Nitka also contends DOE was required to produce the entire transcript based
on Fed. R. Evid. 106, which provides “[i]f a party introduces all or part of a writing
or recorded statement, an adverse party may require the introduction, at that time, of
any other part—or any other writing or recorded statement—that in fairness ought to
be considered at the same time.” But this rule “does not necessarily require
admission of an entire statement, writing or recording” but “only those portions
which are relevant to an issue in the case and necessary to clarify or explain the
portion already received.” United States v. Lopez-Medina, 596 F.3d 716, 735
(10th Cir. 2010) (brackets and internal quotation marks omitted) . Nitka has not
identified which additional portions of his deposition transcript needed to be
admitted, nor has he argued how he was prejudiced, and it is not our role to make the
arguments for him. Garrett v. Selby Connor Maddux & Janer, 425 F.3d 836, 840
(10th Cir. 2005).
Last, Nitka contends the “transcript was not admissible as evidence because
DOE failed to follow Fed. R. Civ. P. 5(d)(1) which requires a deposition transcript to
8

IVc

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 9

726

be filed with the court if it is used in the proceeding.” Aplt. Opening Br. at 66-67
(internal quotation marks omitted). He therefore argues the bankruptcy court erred in
overruling his objection “that the material cited to support or dispute a fact cannot be
presented in a form that would be admissible in evidence.” Fed. R. Civ. P. 56(c)(2).
But plainly, the material cited by DOE could be presented in a form that would be
admissible in evidence—Nitka’s own testimony. In any event Fed. R. Civ. P. 5(d)(1)
is a rule of procedure, not evidence, and provides that deposition transcripts
“must not be filed until they are used in the proceeding or the court orders filing,”
Fed. R. Civ. P. 5(d)(1)(A) (emphasis added). The rule does not require an entire
transcript be filed if a portion is used, and the local rules specify that only “relevant
excerpt[s]” should be attached to a summary judgment motion, D. Colo. L. Bankr. R.
7056-1(c). Nitka thus has not shown the court erred in its rulings regarding the
transcript.5
HI.

Order Granting Summary Judgment

In his final argument, Nitka contends the bankruptcy court erred in granting
summary judgment to DOE. We review this issue de novo and must “affirm if there
is no genuine dispute as to any material fact and the movant is entitled to judgment as
a matter of law.” Lee v. McCardle {In re Peeples), 880 F.3d 1207, 1212 (10th Cir.
2018) (citation and internal quotation marks omitted). “A dispute is genuine if the

5 Nitka also states, without argument or authority, that he was entitled to
copies of the transcript under Fed. R. Civ. P. 30(f) and 26(a) and that the transcript
should have been struck undefTedrRTCivr-p—l-2ff)—We-deeline-t«-Gonsider-such_
conclusory assertions. See Wooten, 377 F.3d at 1145.
9
AnnonHiv C

Appellate Case: 20-1270

Document; 010110511947

Date Filed; 04/23/2021

Page. 10

73a

evidence could reasonably result in a ruling for non-movant, and a fact is material if
“it might affect the outcome.” Birdv. W. Valley City, 832 F.3d 1188, 1199 (10th Cir.
2016) (internal quotation marks omitted). The non-movant, however, may not rely
on “[unsubstantiated allegations.” Bones, 366 F.3d at 875.6
To establish undue hardship for discharging student loans under 11 U.S.C.
§ 523(a)(8), a debtor must satisfy three factors:
(1) that the debtor cannot maintain, based on current income and
expenses, a minimal standard of living for herself and her dependents if
forced to repay the loans;
(2) that additional circumstances exist indicating that this state of affairs
is likely to persist for a significant portion of the repayment period of
the student loans; and
(3) that the debtor has made good faith efforts to repay the loans.
Educ. Credit Mgmt. Corp. v. Polleys, 356 F.3d 1302, 1307, 1309 (10th Cir. 2004)
(internal quotation marks omitted). The test must be applied to allow discharge for
“debtors who truly cannot afford to repay their loans. Id. at 1309.
The bankruptcy court concluded Nitka made a sufficient showing on the first
and third factors to withstand summary judgment but not on the second factor. When
considering this factor, a court must take “a realistic look . . . into [the] debtor’s
circumstances and . . . ability to provide for adequate shelter, nutrition, health care,
and the like.” Id. at 1310. A “court[] should base [its] estimation of a debtor’s
prospects on specific articulable facts, not unfounded optimism, and the inquiry into

6Nitka"devotesmuch-of-his-briefs-t©-4isputing-statements_inT)0. ’s summary
judgment motion. Our focus, however, remains on the court’s order and the record.
10
Annpndiy C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page. 11

74*

future circumstances should be limited to the foreseeable future, at most over the
term of the loan.” Id. (internal quotation marks omitted). A debtor need not show
“a certainty of hopelessness,” but the second factor “recognizes that a student loan is
viewed as a mortgage on the debtor’s future.” Id. (internal quotation marks omitted).
It is undisputed that Nitka is relatively young, has no dependents, and is highly
educated. He twice failed the Arizona bar exam, but “[m]any attorneys fail the
bar examination a time or two and go on to very successful careers in the law.
R., vol. 4 at 2623. He alleges he cannot afford to take the Colorado bar exam, which
he believes he can pass, but there is no evidence that he has inquired into a fee
waiver. Nitka also has significant “experience in numerous industries,” id., and has
proven capable of holding steady employment when he chooses . But he has taken no
steps to re-enter the insurance industry, and he “just [does not] want to work in a
restaurant,” R., vol. 1 at 171. He averaged only one job application per month
between May 2018 and May 2019, at which point he “gave up on job searching.”
Id at 180. He instead spends 100 hours per week on “new business ventures,” which
“is his choice.” R., vol. 4 at 2623. One project is building a mobile phone
application, which, coupled with his knowledge of HTML, see R., vol. 1 at 147,
indicates technological proficiency he could use in obtaining employment. The other
project is converting a bus into a vacation rental, which he planned to complete by
the end of 2020 and rent for $100 to $400 per night. Although he uses his “own two
hands” to convert the bus, id at 184, and plans to convert one bus per year, he

11
AnnpnHiY C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 12

Ib'c

suggests his medical conditions hinder his job prospects. But as upheld above, he
waived any reliance on his medical conditions to show undue hardship.
Ultimately, Nitka “has a strong potential for future employment should he
choose to go back to work” and has not shown “his financial situation [is] unlikely to
improve.” R., vol. 4 at 2624. He also has not shown “his financial difficulties are
likely to persist for a significant portion of the repayment period,” which “is at least
21 years.” Id? He alleged he does “not plan on remaining in [his] current desperate
situation” and “fully anticipate^] pulling [him]self out of these circumstances.
Id. (internal quotation marks omitted). And he testified he needs the discharge
because of his “current economic situation, now and in the near future? R., vol. 1
at 155 (emphasis added). That hardly bespeaks a “state of affairs . . . likely to persist
for a significant portion of the repayment period of the student loans.” Polleys,
356 F.3d at 1307. Accordingly, the court properly granted summary judgment for
DOE.

7 Nitka insists his “repayment period was over” as of September 2018, when,
according to the rules on DOE’s website, he defaulted on his loans. Aplt. Opening
Br at 34 But see Aplt. Opening Br. at 33 (stating he was “in default as of February
26^ 2019 (270 days from the June 1, 2018 payment date)”). He thus contends that
because the repayment period ended and he is unable to pay the balance in full, he
has shown his “state of affairs is likely to persist for a significant portion of the
repayment period,” Polleys, 356 F.3d at 1307. But while Nitka made this argument
in the BAP, he did not raise it in bankruptcy court, and he has not argued plain error.
We therefore decline to consider this argument. Richison v. Ernest Grp., Inc.,
'634_F:3'd_li'23rl“T3'1“(-10th-€ir.-201-1-)^--------------------------------------------------------12
Anmndix C

Appellate Case: 20-1270

Document: 010110511947

Date Filed: 04/23/2021

Page: 13

76*

CONCLUSION
The bankruptcy court’s judgment is affirmed.
Entered for the Court

Bobby R. Baldock
Circuit Judge

13
Annfindix f

Appellate Case: 20-1270

Document: 010110519866

Hi
Page: 1
FILED
United States Court of Appeal;
Tenth Circuit

Date Filed: 05/10/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

May 10, 2021
Christopher M. Wolpert
Clerk of Court

In re: GORDON NITKA,
Debtor.

GORDON NITKA,
Plaintiff - Appellant,
No. 20-1270
(BAP No. 20-002-CO)
(Bankruptcy Appellate Panel)

v.
DEPARTMENT OF EDUCATION,
Defendant - Appellee.
ORDER

Before MORITZ, BALDOCK, and EID, Circuit Judges.
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Annfinriix H

Case:18-01230-TBM Doc#:122 Filed:01/06/20 Entered:01/06/20 15:56:10 Pagel of 33

01c

UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF COLORADO
Bankruptcy Judge Thomas B. McNamara

In re:

Bankruptcy Case No. 18-16296 TBM
Chapter 7

GORDON BEECHER NITKA,
Debtor.
GORDON BEECHER NITKA,

Adv. Pro. No. 18-1230 TBM

Plaintiff,

v.
U.S. DEPARTMENT OF EDUCATION,
Defendant.

ORDER GRANTING DEFENDANT’S MOTION FOR SUMMARY JUDGMENT

I.

Introduction.

The Plaintiff, Gordon Beecher Nitka (the “Plaintiff’), borrowed heavily from the
Defendant United States Department of Education (the “DOE”), to fund his law school
education.’ He graduated in May 2013 severely in debt for his student loans but was
unable to pass the Arizona bar examination. So, for several years, he labored in
various positions that did not require a law degree. Mainly, he sold life insurance for
MassMutual and worked as a contract law clerk and director in a law firm. But, he also
took a few other assorted positions over the years. He coached as a fitness instructor,
served as an advisor for a fitness technology company, sold roofing, and helped a
hospitality group. Some years, he did fairly well financially. He earned gross income of
$61 901 in 2015 and $83,000 in 2016. (Those amounts are above Colorado medianincome levels for a debtor like the Plaintiff.) But, he struggled. He stopped working for
MassMutual in January 2018 and lost his position at the law firm in May 2018 Since
then, for the most part, he stopped seeking employment. Currently t^f 1pl?.,[ltlfLls.
unemployed. For 2018, the Plaintiff earned gross income of only $8,381. The Plamtitt
filed for protection under Chapter 7 of the Bankruptcy Code1 in July 2018.
Unless otherwise indicated, all references to “Section are to Sections of
1
11 U.S.C. § 101 etseq.
the United States Bankruptcy Code.

Annpnrliv A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page2 of 33

02*

The Plaintiff is indebted to the DOE to the tune of about $210,000 . Meanwhile,
not done much to repay his student loans. He paid nothing during 2013

was
_____ And, then he filed for bankruptcy protection without paying
paid the DOE only $109.10
The Plaintiff is highly-educated and fairly young — just 37 years of age.
anything
Hehas^nomore
dependents^nd the record reveals no disabilities. However, he wishes to
cancel his student loan obligations to the DOE. Acting on a pro se basis^
^
Adversary Proceeding seeking discharge of his student loans under Section 523(a)( )
for “undue hardship.”
The DOE submitted a “Motion for Summary Judgment” under Fed. R. Civ. P. 56,
as incorporated by Fed. R. Civ. P. 7056. (Docket No. 76, the “Motion for Summary
Judqment.”)3 The alleged undisputed facts set forth in the Motion for Summary
Judgment are fully supported by record evidence (including the Plaintiffs deposition,
discovery responses, an affidavit, and related materials). The Defendant through its
Motion for Summary Judgment, challenges the Plaintiffs ability to provei his; case at tna .
facts^advanced by the DOE. And, he provided no counter-facts or additional evidence
at all.
So, somewhat regrettably, the Court is left to decide the I^tion for:Summary
Judqment only on the basis of the undisputed facts presented by the DOE. The Court
sympathizes with the Plaintiff and the financial challenges that he has faced However,
on the record presented, the Court is obligated to determine that the Plaintiff failed to
meet his summary judgment burden to show evidence of “undue hardship under
2
Although the Plaintiff is proceeding without the advice and assistance of legal.““J®®1 , he is a law
crhnnl nraduate and has shown some facility with the law and procedures governing litigation.
R*nard?ess he is proceeding on his own behalf. “The court, therefore, ‘reviewfs] h[is] pleadings and
other papers liberally and hold[s] them to a less stringent standard than those drafted by attorneys_
Heath vPRoot9b, 2019 WL 1045668, at *2 (D. Colo. Mar. 4, 2019) (quoting Trackwe//^aS472 F.3d
•io/io -iOAT. noth Pir 200711 See also Thompson v. Coulter, 680 Fed. Appx. 707, 710 (10th Cir. 2017)
SS* %™sX con1%Msdd£ 4 Jane,, 425 F.3d 836,840 (10th Cir. 2005)); Mattv
' if
qoc c 0r\ 11 nfi 1110 MOth Cir 1991) However, the Court cannot take on the responsibility of
2E’aJarguments’ or the Vole of advocate' for a pro se plaint^
S3 2019 WL 1045668 at *3 (quoting Garrett, 425 F.3d at 840). Finally, even though he ties elected
to proceed on a pro se basis, the Plaintiff is required to follow the same rules of procedure that othe
litigants must abide by. Garrett, 425 F.3d at 840 (quoting Nielsen v. Price, 17 F.3d 1276,1277 (10th Cir.
1994)) ' The Court will use the convention “Docket No.___” to refer to a document filed in the CM/ECF file

2
Annpndix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Pages

ot

66

03e

Section 523(a)(8). Thus, the Court will enter judgment in favor of the DOE and against
the Plaintiff. The Plaintiffs student loan obligations to the DOE are determined to be
nondischargeable.
II.
A.

Procedural Background.

The Bankruptcy Case.

The Plaintiff filed for relief under Chapter 7 of the Bankruptcy Code on July 19
2018 in the case captioned In re Gordon Beecher Nitka, Case No. 18-16296 (Bankr. D.
Colo ) (Docket No. 1 in Main Case.) With respect to assets and liabilities, on his
Schedules A/B and C (as amended) the Plaintiff asserted that he had no non-exempt
assets. (Docket Nos. 1,17, 20, 22, 29, and 31 in Main Case.) He listed a disputed debt
of $191 081 to the DOE. (Docket No. 29 in Main Case.) Such amount constituted
about 83% of all claims listed by the Plaintiff. (Id.) Regarding income and expenses, on
his Schedule I, the Plaintiff identified himself as unemployed and earning no income.
(Docket No. 31 in Main Case.) On his Schedule J, he listed $2,284 in monthly
expenses and stated: “I do not plan on remaining in my current desperate situation. I
don’t have specifics, but I fully anticipate pulling myself out of these circumstances.
(Id.)
The Chapter 7 Trustee filed a “Report of No Distribution indicating that creditors
will be paid nothing through the bankruptcy process. (Docket Entry 9/17/18 in Main
Case.) On January 29, 2019, the Court issued its “Order of Discharge, generally
discharging the Plaintiff from pre-petition debts. (Docket No. 35 in Main Case.)
However, the Order of Discharge excepted from its reach “debts that the bankruptcy
court has decided or will decide are not discharged in this bankruptcy case. (Id.)
B.

The Adversary Proceeding.

The same day that the Plaintiff filed for bankruptcy (and well before the entry of
the Order of Discharge), the Plaintiff initiated this Adversary Proceeding by filing his
“Complaint to Determine Dischargeability of Student Loan.” (Docket No. 1, the
"Complaint.”) Through his Complaint, the Plaintiff requested that any debt owed to he
DOE be discharged under Section 523(a)(8) as an “undue hardship. (Id.) The Plaintiff
initially asserted claims against both the DOE and Nelnet, Inc. Subsequently, the Court
dismissed Nelnet, Inc. as a defendant. (Docket No. 20.) Thus, the DOE is the only
remaining Defendant. The DOE filed an "Answer to Plaintiffs Complaint contesting
discharge of the Plaintiffs student loan debt. (Docket No. 16.)
On March 7, 2019, after receiving the input of the Plaintiff and the DOE, the
Court entered a “Scheduling Order Under Fed. R. Civ. P. 16(b) and Fed. R. Bankr. P.
7016” setting the dispute framed by the Complaint and Answer for trial. (Docket No.
the “Scheduling Order.”) The Court also set a series of pre-trial deadlines. (Id.) Since
the issuance of the Scheduling Order, the record reflects that the Adversary Proceeding
has been ratfienfotlycontested-with-nurnerous-discovery-disputes, an interlocutory____
3
Annfindix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:ui/Ub/AJ ib:bb:iu rage* u. oo

046

appeal to the United States Bankruptcy Appellate Panel for the Tenth Circuit (along with

113, 115,116, 118-119.) Suffice it to say, over the course of the pretrial proceedings,
the Court has become very familiar with the dispute between the parties.
q

The Recurring Discovery Dispute and the Rule 37 Sanctions Hearing.

One of the recurring pretrial issues was whether the Plaintiff would assert any
medical condition in support of his Complaint. He had alluded in his Complaint to a
medical condition which contributed to his current financial circumstances. (Docket No.
1 at 2.) However, when the DOE sought discovery related to his alleged medical
condition the Plaintiff resisted answering both during his deposition and in response to
written discovery requests. The Court was called upon to convene hearings to resolve
those discovery disputes. (Docket Nos. 31 and 47.)
Then, after the close of discovery, the Plaintiff filed a Supplemental Discovery
Response (Docket No. 48) in which he intimated that he would be relying on a medical
condition to meet his burden at trial. That prompted the DOE to file its “Motion for
Further Orders Regarding Incomplete Disclosures, and for Order Limiting Plaintiffs
Abilitv to Introduce Evidence of Alleged Medical Condition Under Rule 37, or, In the
Alternative Leave to Reopen Limited Discovery.” (Docket No. 53, the Motion Regarding
Incomplete Disclosures.") The Court convened a hearing on the Motion Regarding
Incomplete Disclosures on November 7, 2019 (the “Sanctions Hearing”). At the
Sanctions Hearing, the dispute over the Plaintiffs reliance on any medical condition
came to a head. Even at the Sanctions Hearing, the Plaintiff continued to equivocate as
to whether he would rely at trial on his alleged medical conditions in support of his
Complaint. See Transcript of Hearing Held on November 7, 2019 at 22:4-24:23 (Docket
No. 74, the “Transcript” [hereinafter, cited as “Tr.”]).
After hearing the arguments of the parties and reviewing the relevant documents
and record in the case, the Court ultimately concluded that the Plaintiff had been
evasive incomplete, and unresponsive in answering the discovery requests made of
him (Tr. at 29:22-25); that he had abused the discovery process (Tr. at 30:4-5); and that
sanctions under Fed. R. Civ. P. 37 were warranted (Tr. at 30:7-10). So, the question
before the Court was what sanction to impose on the Plaintiff for such conduct.
On the record, the Court described the alternative sanctions available under Rule
37 that were urged by the Defendant:
And there are at least two different alternatives available to
the Court which have been properly described by the
government. The first alternative is that the Court could
prohibit the debtor from introducing any testimony
concerning medical issues to support his claims for
—______ dischargeability under^in.the case and under Section 523_____________
4
Anneindix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page5 of 33

055

of the Bankruptcy Code. I could do that. I could prohibit you
from getting into this.
And it sounded like to me, at the, sort of toward the
beginning of the case, you didn't want to get into it, anyway.
That's one of the reasons, Mr. Nitka, why I was asking you
whether you wanted to get into your medical issues and
make arguments about it or you didn't. So, I could prohibit
you from doing that.
Or, alternatively, I could reopen the discovery process and
allow the government a full and complete opportunity to
conduct discovery about all your medical conditions and why
you believe that your medical conditions impact your ability
to pay. And toward that end, I also could extend the period
of time for expert reports, and I may need to vacate the trial,
which I hardly ever do. I'm very committed to try to get
cases to the end.
In this case I’m very tempted to, and probably ordinarily
would, just prohibit you from using any testimony or
evidence concerning medical issues. However, I'm going to,
in this unusual case, note also that you are proceeding on a
pro se basis, even though you've gone to law school, and
you've at least asserted or alleged that there are issues
concerning your capacity and so forth.
Tr. at 30:11-31:14. The Court offered the Plaintiff a final opportunity to decide whether
he wished to rely on his alleged medical conditions at trial or not.
And so what I'm going to do is I'm really going to turn to you,
Mr. Nitka, and I’m going to give you an option. I'm going to
ask you again whether or not you wish to pursue medical
testimony in support of your case. And if you do, then I m
going to order a full round of discovery and so forth. And . ..
if you don't want to produce any further medical information,
then we'll just prohibit you from doing so. Okay?
So, it’s in your hands; I want your answer.
Tr. at 31:15-24.
Finally, the Plaintiff committed on the record that he would not argue any medical
conditions at trial. This is what the Plaintiff said:

5
AnnenHiy b

Case:18-01230-TBM Doc#: 122 Filed.01/06/20

Entered:01/06/20 15:56:10 Page6of33

06a

MR. NITKA: I will decline to address the medical issues in
the trial.
THE COURT: Now you are declining. You commit
that you will not be raising any medical issues in support of
your case. Is that right, sir?
MR. NITKA: That’s correct.

But right now you're telling the
THE COURT:
Court, and you're also committing to the other side, that
you're not going to raise any medical issues in support of
your claims at trial. Is that correct, or is that not correct?
MR. NITKA: That is correct.
Tr. at 34:1-6.
On that basis, the Court granted the Defendant’s Motion Regarding Incomplete
Disclosures to the extent of precluding the Plaintiff from introducing evidence at trial
related to any alleged medical conditions. (Docket No. 61.) Thus, the Court noted that
discovery would not be reopened and that the trial on the Complaint could proceed as
set. Id. at 37:1-9.

D.

The Motion for Summary Judgment.

Apparently prompted by the Plaintiff’s commitment that he would “decline to
address the medical issues in the trial,” the DOE filed the Motion for Summary
Judgment at the last possible moment. In its Motion for Summary Judgment, the DOE
listed 49 alleged undisputed facts and supported each of the alleged undisputed facts
(sentence by sentence) with citations to “particular parts of materials in the record,
including depositions, documents ... affidavits or declarations,... interrogatory
answers, or other materials ... .” Fed. R. Civ. P. 56(c)(1); MSJ at 3-10.
As the Court discusses below, the DOE bears an initial burden at trial before the
burden shifts to the Plaintiff. Specifically, in a case under Section 523(a)(8), the student
loan creditor has the initial burden to establish the existence and amount of its debt and
the character of its debt as an educational loan within the meaning of Section 523(a)(8).
Once the creditor meets its burden, the burden shifts to the debtor to show that repaying
the student loan debt will cause an “undue hardship.” In the Motion for Summary
Judgment, the DOE presented alleged undisputed facts regarding the debt and its
character as well as negating “undue burden.”

6
Annfindix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page7 ot 33

076

The Court has carefully reviewed all of the 49 proffered undisputed facts
asserted by the DOE and compared such facts to the record citations. Every alleged
undisputed fact is accurate and fully supported. In fact, the DOE s presentation of
proffered undisputed facts in the MSJ is a model of proper summary judgment practice
under Fed. R. Civ. P. 56. Based upon the alleged undisputed facts, the DOE requested
judgment in its favor and against the Plaintiff determining the Plaintiffs student loan
obligations are nondischargeable under Section 523(a)(8).
E.

The Response.

The Plaintiff filed the Response generally contesting the Motion for Summary
Judgment. However, he did not properly contravene any of the specific undisputed
facts alleged by the DOE by citations to “particular parts of materials in the record,
including depositions, documents ... affidavits or declarations,... interrogatory
answers, or other materials ....” Fed. R. Civ. P. 56(c)(1). In other words, the Plaintiff
did not assert, with competent evidence, that any of the alleged undisputed facts
advanced by the DOE were actually wrong — at least not in any material way.
Furthermore, he did not present by citation to the record any additional purported facts.
He did not even submit his own affidavit.
Instead, the Plaintiff responded (in a procedural^ defective manner) to just five of
the DOE’s alleged undisputed facts mostly with picayune discrepancies and unsupported
argument. For example, the DOE alleged that the Plaintiff is 36 years old based upon
the Plaintiffs May 30, 2019 deposition. However, the Plaintiff asserted that such
allegation was a “blatant disregard for fact” because the Plaintiff actually is 37 years old
now The difference is immaterial and easily explained since the Plaintiff turned 37 years
old after his deposition. The DOE also asserted that the Plaintiff is “not seeking
employment.” The Plaintiff claimed that such alleged undisputed fact was “comical in
liqht of the amount of discovery” on such topic. However, he provided the Court with no
evidence contradicting the DOE’s statement. As set forth below, the Plaintiff did not
refute or put at issue with evidence any of the five alleged facts he purported to attack.
In any event, aside from addressing just a handful of the alleged undisputed
facts, the main focus of the Plaintiffs Response was to assert a series of motions. As
best the Court could ascertain, the Plaintiff advanced the following:
Motion to Strike the Declaration of Christopher Bolander. Response
at 5-8 Christopher Bolander is a loan analyst for the DOE. The DOE submitted his
Declaration in support of the Motion for Summary Judgment as Exhibit 7 (the “Bolander
Declaration”). The Plaintiff argued that the Bolander Declaration should be stricken
from the record primarily because the Plaintiff asserted that Mr. Bolander was an expert
witness under Fed. R. Evid. 702 and also because Mr. Bolander allegedly did not have
“first-hand knowledge.” The Plaintiff cited to Fed. R. Civ. P. 12(f), 26(f), 56(c)(2), as
incorporated by Fed. R. Bankr. P. 7012, 7026, and 7056, in support of the Motion to
Strike.

7
Annfindix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page8 of 33

085

2
Motion to Defer Ruling or Deny Motion for Summary Judgment.
Response at 9-10. The Plaintiff argued that the Plaintiff could not present facts
essential to justify his opposition to the Motion for Summary Judgment because, among
other things, he could not obtain a copy of his deposition transcript for review. The
Plaintiff cited to Fed. R. Civ. P. 56(d), as incorporated by Fed. R. Bankr. P. 7056, in
support of the Motion to Defer Ruling or Deny Motion for Summary Judgment.
3

Motion for Conv of Plaintiffs Deposition Transcript. Response at 11-

cS'SHESS"
Motion for Copy of Plaintiff s Deposition Transcript.

4>
Motion to Strike and Rule 56(cM2) Objection. Response at 8-11 The
Plaintiff argued that the Motion for Summary Judgment should be stricken because it
relied on the Plaintiffs own deposition transcript (which the Plaintiff does not have). The
Plaintiff cited to Fed. R. Civ. P. 5(d), 12(f), and 56(c)(2), as incorporated by Fed R.
7012, and 7056, in support of the Motion to Strike and Rule 56(c)(2)
Bankr. P. 7005
Objection.
The Court conducted a hearing on December 19, 2019 on the Plaintiff s various
motions embedded in the Response. After considering arguments presented by both
the Plaintiff and the DOE, the Court denied each of the various motions embedded in
the Response for the reasons set forth in the Court’s extensive oral irehngs. I[Docket No.
118) Since the Court already ruled on such issues, the Court need not further address
the various motions embedded in the Response again and instead refers to the Court s
oral rulings.
ill.

Jurisdiction and Venue.

The Court has subject matter jurisdiction over this Adversary Proceeding

SsSSSSS'SaaSks
1408 and 1409.
In their “Joint Report,” both the Plaintiff and the DOE agreed that the Court “has
authority to enter final judgment with respect to the claims asserted in this Adversary
Proceeding ” (Docket No. 24.) Subsequently, neither the Plaintiff nor the DOE has
contested this Court’s jurisdiction or the propriety of venue in this Court.
IV.

Burden of Proof Under Section 523(a)(8).

The burden of proof in cases for discharge of student loan debt under Section
523(a)(8) is somewhat different than most Section 523(a) nondischargeability actions
The~DOE bears the initialburden-of~establishing-a-debt.for.an_6ducational
and shifts.
8

Annfinriix A

Case:18-01230-TB M Doc#:122 Filed:01/06/20 Entered:01/06/20 15:56:10 Page9 of 33

09e

§ 523(a)(8).' Hoffman v. Eduo. Credit MgmtCorp.
557 B.R. 177 184
/Rankr D Colo 2016) See also Grogan v. Garner, 498 U.S. 279, 286-87
(establishing the “preponderance of the evidence” standard for Section 523(a) actions
generally).
If the DOE meets that burden, then the student loan debt “is only discharged if
the debtor establishes that repayment of the debt would constitute undue hardship.
Hoffman, 557 B.R. at 184. Binding appellate precedent h*s
“[t]he burden of demonstrating ‘undue hardship’ falls on the debtor EduoCredit Mgmt.
Corp v. Mersmann (In re Mersmann), 505 F.3d 1033,1043 (10thi Cir 2007) See also
AMerete v Educ. Credit Mgmt Corp., 412 F.3d 1200 (10th Cir. 2005 (same), Educ.
Credit Mgmt. Corp. v. Polleys, 356 F.3d 1302,1308 (10th Cir. 2004) (same); Woodcock
v. Chemical Bank NYSHESC (In re Woodcock), 45 F.3d 363, 367 (10th Cir. 1995)
(same). The debtor’s burden to show ‘undue hardship’ often is difficult to meet.
V

The Legal Standards Governing Motions for Summary Judgment.

Notwithstanding the general burdens of proof, this dispute is presented based
upon a pretrial motion for summary judgment. Motions for summary judgment are
Governed by Rule 56 of the Federal Rules of Civil Procedure, as incorporated herein by
Rule 7056 of the Federal Rules of Bankruptcy Procedure. One of the principal
with that purpose, the DOE seeks summary judgment asserting that the undisputed
facts demonstrate the existence and character of the debt; but also arguing that the
establishes that the Plaintiff is unable to prove the required elements of his
evidence
“undue burden” case.

Civ. P. 56(a); see also Celotex, 477 U.S. at 322 (quoting Fed. R. Civ. P. 56(c)). Put
another way by the United States Supreme Court.
In our view, the plain language of Rule 56(c) mandates the
entry of summary judgment after adequate time for discovery
and upon motion, against a party who fails to make a
showing sufficient to establish the existence of an element
essential to that party’s case, and on which that party will
bear the burden of proof at trial. In such situation, there can
be “no genuine issue as to any material fact, since a
complete failrireof proof concerning-an-essentialelementof----------

9

Annfinriix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 PagelO of 33

10e

the nonmoving party’s case necessarily renders all other
facts immaterial. The moving party is “entitled to judgment as
a matter of law” because the nonmoving party has failed to
make a sufficient showing on an essential element of [his]
case with respect to which [he] has the burden of proof.
Celotex, 477 U.S. at 322-23.
The moving party bears the initial burden of identifying the basis for its motion
and designating those portions of the record which it believes entitles it to judgment
Fed R Civ P 56(c); Celotex, 477 U.S. at 323. In response, the nonmovant must do
more than simply show that there is some metaphysical doubt as to the material facts
. ..Matsushita Elec. Indus. Co. Ltd. v. Zenith Radio Corp., 475 U.S. 574, 586-87
(1986). Instead:
[T]he nonmovant that would bear the burden of persuasion
at trial may not simply rest upon its pleadings; the burden
shifts to the nonmovant to go beyond the pleadings and “set
forth specific facts” that would be admissible in evidence in
the event of trial from which a rational trier of fact could find
for the nonmovant. To accomplish this, the facts must be
identified by reference to affidavits, deposition transcripts, or
specific exhibits incorporated therein.
Adler v. Wal-Mart Stores, Inc., 144 F.3d 664, 671 (10th Cir. 1998) (citations omitted)
See also Savant Homes, Inc. v. Collins, 809 F.3d 1133,1137 (10thi Cir. 2016) (same),
Llewellyn v. Allstate Home Loans Inc, 711 F.3d 1173 (10th Cir. 2013) (nonmoving party
has the affirmative duty of coming forward with evidence supporting
claim at
summary judgment); Bausman v. Interstate Brands Corp., 252 F.3d 1111,1115 (10th
Cir. 2001) (same).
In reviewing a motion for summary judgment, the Court must “view the facts and
evidence in the light most favorable to the nonmoving party.” Morris v. City of Colo.
Springs 666 F.3d 654, 660 (10th Cir. 2012). But, unsupported, conclusory allegations
will not create an issue of fact, and the non-moving party must do more than provide its
subjective interpretation of the evidence. Tran v. Sonic Indus. Servs., Inc., 490 Fed.
Addx. 115 117-118 (10th Cir. 2012) (“A summary judgment is appropriate if the nonmoving party cannot adduce probative evidence on an element of^,ch
bears the burden of proof.”) (citing Rohrbaugh v. Celotex Corp., 53 F3.d 1181,1183
f10th Cir. 1995)). “A party cannot rely entirely on pleadings, but must present significant
probative evidence to support its position.” Hansen v. PT Bank Negara Indonesia
(Persero), 706 F.3d 1244,1247 (10th Cir. 2013) (citing Anderson v. Liberty Lobby, Inc.,
477 U.S. 242,249 (1986)). And, "[i]f the nonmoving party fails to make a sufficient
showing on an essential element with respect to which [it] has the burden of proof,
iudqment as a matter of law is appropriate.” Id. However, “when the evidence could
lead a rationarfact-fifTder"to_resolve-a dispute-in-favor-of-either-part.y,-summary_judgment

10

Anmndix A

Case:18-O1230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Pagell of 33

Me

is improper. ” C.L. Frates & Co. v. Westchester Fire Ins. Co., 728 F.3d 1189 (10th Cir.
2013).
VI.

Undisputed Facts.

The critical first step in adjudicating a motion for summary judgment is to identify
the undisputed facts. Only then can the Court apply the law to the facts and reach a
legal conclusion. Fed. R. Civ. P. 56(a) ('The court shall grant summary judgment if the
movant shows that there Is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.”)
A.

The Procedural Rules.

Procedural rules dictate how the alleged undisputed facts are to be presented
and challenged. Fed. R. Civ. P. 56(c) governs the facts alleged by the movant or
challenged by the non-movant:

(c)

Procedures.

(D

Supporting Factual Positions. A party asserting
that a fact cannot be or is genuinely disputed
must support the assertion by:
(A)

citing to particular parts of materials in
the record, including depositions,
documents, electronically stored
information, affidavits or declarations,
stipulations (including those made for
purposes of the motion only),
admissions, interrogatory answers, or
other materials: or

(B)

showing that the materials cited do not
establish the absence or presence of a
genuine dispute, or that an adverse
party cannot produce admissible
evidence to support the fact.

Then, Fed. R. Civ. P. 56(e) provides the consequences for “failing to properly support or
address a fact”:
(e)

Failing to Properly Support or Address a Fact. If a
party fails to properly support,an assertion of fact or
fails to properly address another party's assertion of
fact as required by Rule 56(c), the court may:

11

Annpnriix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20 Entered:01/06/20 15:56:10 Pagel2of33

(1)

give an opportunity to properly support or
address the fact;

(2)

consider the fact undisputed for purposes of
the motion;

(3)

grant summary judgment if the motion and
supporting materials-including the facts
considered undisputed-show that the movant
is entitled to it; or

(4)

issue any other appropriate order.

12z

.Bankruptcy Court for the District of Colorado supplemented the Federal
The
Rules of Civil Procedure by enacting its Local Bankruptcy Rules. L.B.R. 7056-1
governs summary judgment motions in Colorado and provides:
(a)

Motion and Memorandum in Support. Any motion for
summary judgment pursuant to Fed. R. Bankr. P.
7056 must include:

(1)

a statement of the burden of proof;

(2)

the elements of the claim(s) that must be
proved to prevail on the claim(s);

(3)

a short and concise statement, in numbered
paragraphs containing only one fact each, of
the material facts as to which the moving party
contends there is no genuine issue to be tried;

(4)

a statement or calculation of damages, if any;
and

(5)

any and all citations of law or legal argument in
support of judgment as a matter of law.

counterpoint is L.B.R. 7056-1 (b) which governs oppositions to motions for summary
The
judgment:
(b)

Response and Memorandum in Opposition.
Responses in opposition must include:
(1)

any competing statements concerning the
burden of proof, including burden shifting,

12
Annfindix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/2015:56:10 Pagel3of33

136

together with legal authority supporting such
statements;
(2)

any defenses to the elements of the claim(s)
that must be proved to defeat such claim(s),

(3)

a short and concise statement of agreement or
opposition, in numbered paragraphs
corresponding to those of the moving party, of
the material facts as to which it is contended
there is a genuine issue to be tried;

(4)

a short and concise statement, in numbered
paragraphs containing only one fact, of any
additional facts as to which the opposing party
contends are material and disputed;

(5)

a statement or calculation of damages, if any;
and

(6)

any and all citations of law or legal argument in
opposition to judgment as a matter of law.

Each alleged fact (whether by the movant or the non-movant) must be properly
supported. L.B.R. 7056-1 (c) tells how:
(c)

Supporting Evidence. Each statement by the movant
or opponent pursuant to subdivisions (a) or (b) of this
Rule, including each statement controverting any
statement of material fact by a movant or opponent,
must be followed by citation to admissible evidence
either by reference to a specific paragraph number of
an affidavit under penalty of perjury or fact contained
in the record. Affidavits must be made on personal
knowledge and by a person competent to testify to the
facts stated, which are admissible in evidence. Where
facts referred to in an affidavit are contained in
another document, such as a deposition, interrogatory
answer, or admission, a copy of the relevant excerpt
from the document must be attached with the relevant
passages marked or highlighted.

Finally, L.B.R. 7056-1 (d) states what happens if a non-movant does not properly
contravene alleged undisputed facts:

13
Annonrliv A

Case:18-01230-TBM Doc#:122 Filed:01/06/20 Entered:01/06/2015:56:10 Pagel4of33

(d)

B.

14*

Admission of Facts. Each numbered paragraph in
the statement of material facts served by the moving
party is deemed admitted for purposes of the motion
unless specifically controverted by a correspondingly
numbered paragraph in the statement served by the
opposing party.

The DOE Complied With the Procedural Rules.

The DOE complied with Fed. R. Civ. P. 56 and L.B.R. 7056-1 exactly. The DOE
identified 49 alleged undisputed facts and supported each of the alleged undisputed
facts (sentence by sentence) with citations to “particular parts of materials in the record,
including depositions, documents ... affidavits or declarations,... interrogatory
answers, or other materials ....” Fed. R. Civ. P. 56(c)(1); MSJ at 3-10. More
particularly, the DOE cited to: the Plaintiffs deposition transcript; the Plaintiffs resume;
the Plaintiffs U.S. Individual Income Tax Returns for 2015, 2016 and 2018; the
Plaintiffs responses to discovery; and the declaration of Christopher Bolander, a loan
analyst for the DOE. MSJ at 3-10. In his declaration, Mr. Bolander further properly
authenticated and attached additional admissible evidence including: the Plaintiffs
promissory notes to the DOE; a DOE Certificate of Indebtedness; the DOE’s loan
history for the Plaintiffs indebtedness; the Nelnet servicer account summary for the
Plaintiffs indebtedness; and the Plaintiffs Unemployment Deferment Request. MSJ at
Ex. 7-7F. The Court has carefully reviewed all of the 49 proffered undisputed facts
asserted by the DOE and compared such facts to the record citations. Every alleged
un disputed fact is accurate and fully supported in accordance with Fed. R. Civ. P. 56
and L.B.R. 7056-1.
C.

The Plaintiff Failed to Comply With the Procedural Rules.

The Court’s adjudication of the Motion for Summary Judgment has been
hampered because the Plaintiff failed to comply with Fed. R. Civ. P. 56 and L.B.R.
7056-1. The first problem is that the Plaintiff did not present “a short and concise
statement of agreement or opposition, in numbered paragraphs corresponding to those
of the moving party, of the material facts as to which it is contended there is a genuine
issue to be tried.” L.B.R. 7056-1 (b)(3). And, then, the Plaintiff did not allege “any
additional facts as to which the opposing party contends are material and disputed.”
L.B.R. 7056-1 (b)(4). Further, the Plaintiff failed to present and cite admissible
supporting evidence contravening any of the alleged undisputed facts presented by the
DOE. Fed. R. Civ. P. 56(c)(1)(A); L.B.R. 7056-1 (c). The Plaintiff did not provide an
affidavit or declaration, refer to excerpts from a deposition, or otherwise properly cite
admissible record evidence.4 The Plaintiff has essentially left it to the Court to ferret
through the Response to determine if the Plaintiff contests any alleged undisputed facts.
4
The Plaintiff did attach a handful of unauthenticated materials relating to his 2015 and 2016
Aa»ina«-BesDOQse.at Ex. A-E. As set forth below, these materials do not negate the Undisputed Facts
but do bear on other income numbers such as “adjustecf gr^s-irTComeJ’-and-“taxed-soeial-secur4y-----------

14
Arvnortrliv A

Case:18-01230-TB M Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Pagel5 of 33

I5e

The consequences of the Plaintiffs failure to comply with the procedural
requirements are clear. Under Fed. R. Civ. P. 56(c), if a party
. „fails “fails to properly
v.
^ ^
address another party’s assertion of fact as required by Fed. R. Civ. P. 56(c) the Court
may “consider the fact undisputed for purposes of the motion” and “grant summary
iudqment if the motion and supporting materials — including the facts considered
undisputed — show that the movant is entitled to it.” L.B.R. 7056-1 (d) establishes a
presumption that alleged undisputed facts not properly contested are “deemed
admitted.”
Based on the foregoing, all of the DOE’s alleged undisputed facts asserted in the
Motion for Summary Judgment have been deemed admitted by the Plaintiff. However,
because the Plaintiff is proceeding pro se (albeit a law school graduate), the Court is
reluctant to end its analysis there. Instead, the Court evaluates the portion of the
Response wherein the Plaintiff addressed five discrete alleged undisputed facts.
Response at 3-5.5
1.

The Response to Undisputed Fact No. 3.

The DOE’s alleged Undisputed Fact No. 3 states that “Plaintiff is 36 years old,
has no children, no dependents, and has no relevant health conditions. The Plaintiff
arques that “this is incorrect.” Response at 3. First, he states that he is now “37 years
old” because his birthday is July 2,1982. The DOE cited to the Plaintiff s own
deposition testimony that he was 36 years old. But, the deposition was taken a few
months before the Plaintiff turned 37 years old. So be it. This is a non-material
discrepancy easily explained by the timing of the deposition. In any event, the Court
accepts that the Plaintiff is 37 years old. Second, the Plaintiff apparently wishes to
dispute that he “has no relevant health conditions.” Response at 4. But, the Plaintiff
previously committed in Court that he would not assert any health conditions in support
of his Complaint. See Tr. at 34. Thus, the Court previously ruled that:
Based upon the Plaintiffs commitment that he does not
intend to rely on any medical and/or mental health
condition(s) in support of his Complaint, the Defendant s
motion to prohibit the Plaintiff from introducing any evidence
at trial regarding any medical and/or mental health
condition(s) in support of his Complaint is GRANTED.

income.” In the end, the Court considered such documents and figures (and added them to the DOE s
Undisputed Facts) even though not properly authenticated. But, they are not particularly material and do
not changeJhe^Courtjso

attacked undisputed Fact Nos. 32-46 and 49. One of the motions the

Plaintiff embedded in his Response was his request that the Court strike the Bolander Declaration which
k th^evidentjarv.support.for.suchiacts^we^asnotedI previously, theCourt fchned to strike the
Bolander Declaration. So, because the Court rejected the Plaintiffs opposition to the Bolandei
Declaration, Undisputed Fact Nos. 32-46 and 49 are undisputed.

15
Annonrliv A

C ase:18-01230-TBM Doc#:122 Filed:01/06/20 Entered:01/06/20 15:56:10 Pagel6 of 33

16e

(Docket No. 61.) So, the Plaintiff can not bring up medical conditions now. In any
event, even if the Plaintiff does have some “relevant health conditions,” he failed to
provide any proper evidence in the Response, He did not submit an affidavit or
declaration about his medical conditions. And, he did not provide authenticated medical
records on the topic. The Plaintiff also did not contest that he has no children and no
dependents. So, the Plaintiff failed to properly contravene Undisputed Fact No. 3.
2.

Response to Undisputed Fact No. 18.

The DOE’s alleged Undisputed Fact No. 18 states that “[s]ince May 2018 .. . [the
Plaintiff] also stopped seeking employment and is not presently looking for a job. The
Plaintiff argues that this is wrong. However, Undisputed Fact No. 18 is based on the
Plaintiffs own deposition testimony. During his deposition he testified under oath as
follows regarding his job search:
I’ll give you some unsolicited information. I don’t anymore. I
gave up on job searching .... So not looking for a job but
working for future income.
MSJ Ex. 1 98:11-22. The other deposition excerpts provided by the DOE demonstrate
that the Plaintiff stopped his job search in May 2018 so he could focus on developing
“my own source of income.” Id. 105:1-13. That is, the Plaintiff is trying to pursue his
own business ventures rather than engage in any job searches. Id. 98:22-104.25.
Despite his own deposition testimony, the Plaintiff now states in the Response
that “he has made considerable efforts to secure employment” and “has applied to
nearly one hundred jobs.” Response at 4. The problem is that such statement is
merely an unsupported assertion in a pleading. It is not evidence. The Plaintiff failed to
submit an affidavit or declaration. And, he has not provided the Court with any
documentary evidence of even a single job application in the Response. So, the
Plaintiffs allegation is completely unsupported.
The Plaintiffs other quarrel with Undisputed Fact No. 18 is that he allegedly
worked for a roofing company for a brief period after May 2018. The Plaintiff did not
himself provide any evidence of that job by way of an affidavit, declaration, or
documentary support. However, in its Reply, the DOE attached excepts from the
Plaintiffs own deposition testimony wherein the Plaintiff stated that he worked for a
roofing company. (Docket No. 99.) He made less than $3,000. Id. So, the roofing job
was not particularly material. However, the Court accepts that while the Plaintiff gave
uo his job searching and is presently not looking for employment, he did earn less than
$3,000 while working at a roofing company after May 2018. But, the Plaintiff failed to
properly and materially contravene Undisputed Fact No. 18.

16
Annonrliv /S

Case:18-01230-TBM Doc#:122 Filed:01/06/20

3.

Entered:01/06/20 15:56:10 Pagel7 of 33

175

Response to Undisputed Fact No. 22.

The DOE’s Undisputed Fact No. 22 states that “[i]n 2015, Plaintiffs gross income

Income” of $61,901. In the Response, the Plaintiff stated that he objects to
Defendant’s use of ‘gross income’ as prejudicially misleading. Gross income is not
reflective of a tax-payer’s income.” Response at 4. Instead, the "
“Adjusted Gross Income” which the Plaintiff contends was somewhat less^ $39,156 _
But the Plaintiffs contention is only argument. He does not contest that he repo
$61* 901 in “Gross Income" in 2015. That is undisputed. But, for purposes of
adjudicating the Motion for Summary Judgment, the c?uJt<f'®0.^1 .^®p“hat the
Plaintiff also reported a lower “Adjusted Gross Income of $39,156 in 2015.
4.

Response to Undisputed Fact No. 23.

The DOE’s Undisputed Fact No. 23 states that “[i)n 2016, Plaintiffs total wages
were approximately $83,000.” For support, the DOE correctly cited to the
2016 Federal Income Tax Return which verifies that the Plaintiff himself reported 2016
“qross income” of $83,000. In the Response, the Plaintiff suggested that the Court
should instead rely on a Social Security Administration
at
that the Plaintiff’s “Taxed Social Security Earnings were $54,643 in 2016. Response at
5 and Ex A and C But, again, the Plaintiffs contention is only undeveloped argument.
The Plaintiff has not even explained what the term “Taxed Social Security Earnings
means He does not contest that he reported $83,000 in gross income on his Federal
Income Tax Return in 2016. That is undisputed. Nevertheless, the4Court^l|°
accept that the Plaintiffs “Taxed Social Security Earnings were $54,643 in 2016.
Furthermore, in the Plaintiffs Statement of Financial Affairs, he reported 2016 wages,
commissions and bonuses” of $77,350.65. (Docket No. 1 in Main Case.)
5.

Response to Undisputed Fact No. 26.

The DOE’s Undisputed Fact No. 26 states that “Plaintiff is currently unemployed
and not seeking employment and therefore has current income of $0. For support, the
DOE correctly cited the Plaintiffs responses to discovery. In his Response, thePlaintrff
contends that “Defendant’s claim is comical....” Response at 5. The Court sees
nothing comical about it. The Plaintiff himself has contended that he is unemployedJn
his Schedule I, the Plaintiff listed current income of $0. Those facts are> not in dispute.
So the Plaintiffs retort that the DOE’s claim is “comical” seems dyejjtedto the
statement that he is “not seeking employment.” However, as set forth above (in relation
to Undisputed Fact No. 18), the Plaintiff himself confirmed in his deposition testimony
that he ts not seeking employment. In any event, the Plaintiff faHed to properly contest
Undisputed Fact No. 26 by providing and citing any contrary evidence at all.
.«_____ |n
of .to Response, the Plaintiff asserts that his 2015 ‘Adjusted
$29 156. Response at 4. However, in support the Plaintiff Cl*es °
Exhibit E to the Response. That document shows $39,156, not $29,156.

17
Artnartrliv A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

D.

Entered:01/06/20 15:56:10 Pagel8 of 33

18e

Findings of Undisputed Facts.

As explained above, since the Plaintiff failed to comply with the governing
procedural rules, he has admitted all of the undisputed facts identified in the Motion for
Summary Judgment. Further, even considering the five undisputed facts that the
Plaintiff discussed in the Response, he has not raised any competent and material
disputes, Thus, the Court finds the following are the “Undisputed Facts for purposes of
the Motion for Summary Judgment:
1.
On July 19,2018, Plaintiff filed his Voluntary Petition
for Chapter 7 relief pursuant to 11 U.S.C. § 101 et seq. On
January 29, 2019, this Court entered an Order of Discharge,
thereby discharging Plaintiffs debts (not including the
student loans at issue in this action).
On July 19, 2018, the same day Plaintiff filed for
2.
bankruptcy, he filed the above-captioned Adversary
Proceeding seeking to discharge his student loans. He
asserts that repayment of his student loans would impose an
undue hardship on him and that, therefore, he is entitled to a
discharge of those loans pursuant to 11 U.S.C. § 523(a)(8).
3.
Plaintiff is 37 years old, has no children, no
dependents, and has no relevant health conditions.
Mr. Nitka started at Colorado College in the winter of
4.
2002 and graduated from Colorado College in May 2005
with a B.A. in English and Biology.
5.
During college, Mr. Nitka worked as a VIP host for the
school’s administration, a tutor in anatomy and physiology,
and as a paraprofessional for surgical anatomy.
6.
Following his graduation from Colorado College, Mr.
Nitka obtained an internship with the United States Olympic
Committee and worked as the co-director of U.S.A. House in
Torino, Italy during the 2006 Winter Olympic Games. The
U.S.A. House was a high-profile VIP hospitality center for
celebrities, athletes, politicians, and dignitaries.
Mr. Nitka has experience in the hospitality industry.
7.
He worked for the Broadmoor Resort as a bartender and
server at various times between 2004 and 2009 and worked
in the nightclub industry after graduation from college,

18
Annorirliv A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/2015:56:10 Pagel9of33

I9e

working his way up from a doorman to a supervisor, to a
manager of four high-volume nightclubs.
Mr. Nitka worked in the hospitality industry until he
8.
began law school at the Phoenix School of Law in 2010.
9.
During law school Mr. Nitka worked in various legal
positions, both paid and unpaid, as a law clerk or legal aide.
Towards the end of law school Mr. Nitka also worked
10.
as a fitness coach for a team of competitive athletes. He
continued that work on a part-time basis after graduating
from law school, through November of 2015, earnings up to
$90 per hour.
11.
Plaintiff started law school at Phoenix School of Law
in 2010 and graduated in May 2013.
12.
After graduating from law school, Plaintiff worked as a
co-chair for the Board of Advisors for a San Francisco-based
fitness technology company called Revive. Plaintiff was not
paid a salary, and instead received equity compensation and
owned a portion of the equity in the business, but the
company ultimately dissolved.
13.
After law school, Plaintiff also worked for a law firm
called Negretti & Associates as a contract law clerk and
worked his way up to the position of firm director. As a
contract law clerk, he conducted legal research and writing
for the firm. Id. While with Negretti & Associates, he earned
approximately $25 per hour.
14.
Plaintiff is not currently licensed to practice law. He
has taken the bar exam in Arizona, but has never taken the
bar exam in Colorado. Plaintiff believes he can pass the bar
exam.
15.
Plaintiff was removed from his position with Negretti &
Associates in May or April of 2018 after his ex-wife’s mother
posted approximately 40 negative reviews of the firm.
Beginning in August 2014, Plaintiff also worked for
16.
MassMutual selling life insurance. He worked with
MassMutual until January 2018 and was paid a commission
based on the sales he made.

19
Ar\nor>rliv /S

Case:18-01230-TBM Doc#:122 Filed:01/06/20 Entered:01/06/20 15:56:10 Page20 of 33

20e

17. Plaintiff has held both state and national financial
licenses for the sale of life insurance and annuities, including
a Series 6 license. However, his licenses have been
suspended by FINRA due to his failure to respond to a letter
regarding his use of a Virtual Private Network ( VPN ) during
his tenure with MassMutual. Although use of a VPN is
common, Mr. Nitka has chosen not to respond to the letter.
He has not taken any steps to get back into good standing.
18.
Since May 2018, shortly after Mr. Nitka stopped
working for Negretti & Associates and two months before he
filed this adversary proceeding, he also stopped seeking
employment and is not presently looking for a job. However,
sometime after May 2018, he worked for a roofing company
and earned less than $3,000.
19.
In early 2018, Mr. Nitka worked with the owner of a
hospitality group to open a new location. The compensation
for that work was intended to be a percentage of income
from the new location. Mr. Nitka was ultimately let go from
the position because other employees with more tenure with
the company were chosen to start the new location.
20.
Mr. Nitka explained that he is not currently employed
with hospitality groups or specific restaurants or bars
“[mjostly because I just don’t want to work in a restaurant.
While Mr. Nitka occasionally applies for positions,
21.
since May 2018 he has been primarily focused on his own
business ventures, spending over 100 hours per week on
those ventures. In particular, Mr. Nitka is working to develop
a software application that would be used in bars and
restaurants and on converting a bus into a tiny house that he
hopes to rent out on Airbnb. Mr. Nitka hopes to park the bus
in ski resort areas and charge between $100 and $400 per
night.
22.
In 2015, Plaintiffs gross income was $61,901. His
adjusted gross income was lower: $39,156. This income
was from his work with MassMutual and Negretti &
Associates.
23.
In 2016, Plaintiffs total wages were approximately
$83,000. His adjusted gross income was lower. And, his
“Taxed Social Security Earnings” were $54,653. This was

20
A nr\/\nrl!v

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered.01/06/2015:56:10 Page21of33

21S

based on his work with MassMutual and Negretti &
Associates.
For 2017, Plaintiff did not file taxes and still has not
24.
filed taxes for that year. Therefore, he has not reported to
the IRS how much money he made during that year.
25.
For 2018, Plaintiffs total reported income was $8,381
and his reported adjusted gross income was $8,010.
26.
Plaintiff is currently unemployed and not seeking
employment and therefore has a current income of $0.

s

27.
Plaintiff currently has approximately $32,579.79 in
retirement accounts.
28.

Mr. Nitka lives with his mother and pays no rent.

29.
Mr. Nitka pays, when he has income, approximately
$200 a month on food.
30.
Mr. Nitka pays, when he has income, $60 a month for
his cell phone service and lease under his mother’s plan.
31.
Mr. Nitka pays, when he has income, approximately
“a couple of grand” for a year or two of out of pocket
medication.
32.
In 2011 Plaintiff executed two master promissory
notes for student loans related to his attendance at Phoenix
School of Law. Fourteen loans were disbursed to Plaintiff
under the 2011 Promissory Notes.
As of November 5, 2019, Plaintiffs student loan debt
33.
held by DOE related to the 2011 Master Promissory Notes is
$209,716.48.
34.
Nelnet is the servicer for each of Plaintiff s student
loans held by DOE.
35.
Mr. Nitka’s first student loan payments were due
between late November 2013 and early January 2014.
36.
Plaintiff did not make any student loan payments or
apply for a deferment or forbearance until May 14, 2014. On

21

Annfindix A

Case:18-01230-TBM

Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page22 of 33

226

May 14, 2014 Plaintiff submitted an unemployment
deferment request.
37.
Nelnet granted and then applied Plaintiffs May 2014
unemployment deferment request retroactively so that his
account with Nelnet and DOE was no longer delinquent.
Since Plaintiffs loans entered repayment, he has
38.
made eleven payments of $21.82 each, totaling
approximately $240.02. These payments were made in
2016 and 2017.
Plaintiff is eligible for income-driven loan repayment
39.
programs.
Plaintiff is eligible for three different loan repayment
40.
programs: IBR (Income Based Repayment), REPAYE
(Revised Pay as Your Earn), and ICR (Income Contingent
Repayment).
41.
Under IBR and REPAYE, a borrower’s student loan
payments are $0 per month whenever a borrower makes
less than 150% of the Health and Human Services (“HHS”)
Poverty Guidelines for their family size. For a single
borrower living in Colorado, the 2019 HHS Poverty Guideline
is $12,490 and 150% of that amount equals $18,735. As
long as a single borrower earns under the threshold of
$18,735 and certifies the same to the Department of
Education, no monthly payment is required on a DOE loan
under these programs.
A borrower’s “discretionary income” is the amount the
42.
borrower earns over 150% of the HHS Poverty Guideline.
Under IBR, a borrower’s monthly payment is 15% of
discretionary earnings, divided by 12. Under REPAYE, a
borrower’s monthly payment is 10% of discretionary
earnings, divided by 12.
43.
Under ICR, a borrower’s student loan payments will
be $0 per month whenever a borrower makes less than
100% of the HHS Poverty Guidelines. For borrowers above
this threshold, monthly payments are equal to 20% of
discretionary income, divided by 12.

22

Anmndix £

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/2015:56:10 Page23 of 33

23a

44.
Based on Plaintiffs current stated income of $0,
Plaintiffs current repayment amount would be $0 per month
under any of these programs.
45.
IBR, REPAYE, and ICR all have a 25-year repayment
period for Mr. Nitka. At the end of that 25-year repayment
period, Mr. Nitka’s outstanding loan debt would be forgiven.
46.
Mr. Nitka first entered the IBR program in June 2015.
Therefore, he has at least 21 years left in the repayment
period under any of the above income-driven repayment
programs.
47.
Plaintiff believes his monthly student loan payments
are $1,878.30.
48.
Plaintiff believes that making student loan payments
of $21 per month would not be a hardship for him.
49.
Under the IBR program, the program that Plaintiff is
currently enrolled in, Plaintiffs adjusted gross income would
need to be $20,415 to be required to make payments of $21
per month. Under the REPAYE program, Plaintiffs adjusted
gross income would need to be $21,255 to be required to
make payments of $21 per month. Under the ICR program,
Plaintiffs adjusted gross income would need to be $13,750
to be required to make payments of $21 per month.
The Plaintiff failed to properly identify any additional alleged facts for the Court s
consideration. Thus, the Undisputed Facts constitute the only evidence for purposes of
the Motion for Summary Judgment.
VII.

Legal Conclusions.

Having completed the somewhat laborious task of identifying the Undisputed
Facts, the Court now applies the law to the facts and reaches its legal conclusions.
A.

The DOE Met Its Burden to Prove the Qualifying Debt.

The DOE bears the initial burden to “prove, by a preponderance of the evidence,
that a debt exists and the debt is the type excepted from discharge under § 523(a)(8).
Hoffman 557 B.R. at 184. A type of debt excepted from discharge under Section
523(a)(8) is a debt for an “educational benefit overpayment or loan made, insured or
guaranteed by a governmental unit, or made under any program funded in whole or part
by a governmental unit.. ..” 11 U.S.C. § 523(a)(8)(A)(i).

23
Annendix A

Case:18-01230-TBM Doc#:122

Filed:01/06/20

Entered:01/06/20 15:56:10 Page24 of 33

246

The Undisputed Facts establish that in 2011 the Plaintiff executed two master
promissory notes for student loans related to his attendance at law school. Undisputed
Fact No. 32. The DOE provided authenticated copies of the two promissory notes
made by the Plaintiff in favor of the DOE. Thereafter, the DOE disbursed 14 loans to
the Plaintiff. Undisputed Fact No. 32. The DOE provided authenticated copies of the
DOE Certificate of Indebtedness and Account Summaries for the indebtedness. As of
November 5, 2019, the Plaintiffs student loan debt was $209,716.48. Undisputed Fact
No 33 And the DOE is the holder of such indebtedness. Undisputed Fact Nos. 33
and 34. The’Plaintiff did not dispute any of the foregoing facts. Thus, the DOE
established the existence and the amount of the debt.
The DOE also met its burden to prove that the debt is a type of debt excepted
from discharge under Section 523(a)(8). Section 523(a)(8) applies to debt for an
“educational benefit overpayment or loan made, insured or guaranteed by a
governmental unit, or made under any program funded in whole or part by a
governmental unit....” 11 U.S.C. § 523(a)(8)(A)(i). The term “governmenta unit
means “United States ... [and] department, agency, or instrumentality of the United
States ” 11 U S.C. § 101(27). The DOE is a department of the United States. The
DOE made the loans to the Plaintiff. Undisputed Facts Nos. 32-34. And, the DOE is
the holder of such indebtedness. Id. Through the Undisputed Facts, the DOE
established that the $209,716.48 debt owed by the Plaintiff is the type of debt typically
excepted from discharge under Section 523(a)(8).
B.

The Plaintiff Failed to Meet His Evidentiary Burden to Show “Undue
Hardship.”
1.

The Shifting Burden of Proof.

Since the DOE met its initial burden under Section 523(a)(8), the burden of proof
then shifted to the Plaintiff to establish that the repayment of the student loan debt
would constitute an “undue hardship” on the Plaintiff. 11 U.S.C. § 523(a)(8); Mersmann,
505 F.3d at 1043; Alderete, 412 F.3d 1200; Polleys, 356 F.3d at 1308; Woodcock, 45
F 3d at 367 To meet his burden, the Plaintiff may not merely stand by his pleadings.
See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249-50 (1986); Celotex Corp., 477
U S at 323-24 Unsubstantiated arguments in briefs will not do. Verserge v. Township
of Clinton N.J., 984 F.2d 1359,1370 (3rd Cir. 1993) (“we have repeatedly held that
unsubstantiated arguments made in briefs or at oral argument are not evidence to be
considered by this Court.”). Instead, the Plaintiff must come forward with evidence to
establish “undue hardship.”
As explained above and below, in its Motion for Summary Judgment, the DOE
provided Undisputed Facts in support of the elements it must prove at trial: the
existence of the debt and the character of the debt. In addition, the DOE presented
Undisputed Facts negating “undue burden.” So, the burden shifted to the Plaintiff.
However the Plaintiff failed to do what was required to defeat the Motion for Summary
Judgment-He~presented'nothingtocontesttheUndisputed-Facts.concerning_tne--------24

Annpndiv A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/2015:56:10 Page25of33

25c

existence and nature of the debt owed to the DOE. Also, he failed to make a sufficient
evidentiary showing respecting his alleged “undue burden. Bankruptcy courts routinely
grant summary judgment under Section 523(a)(8) in cases where debtors fail their
summary judgment evidentiary burdens on “undue hardship” issues. See e.g. Augustin
v. U.S. Dep’tofEduc. (In re Augustin), 588 B.R. 141 (Bankr. D. Md. 2018);
Quackenbush v. U.S. Dep’tofEduc. (In re Quackenbush), 2018 WL 4056993 (Bankr.
S.D. Miss. Aug. 24, 2018); Fabrizio v. U.S. Dep’t ofEduc. (In re Fabrizio), 369 B.R. 238
(Bankr. W.D. Penn. 2007).
2.

The Brunner Test.

In the not so distant past, Congress permitted qualified student loans to be
discharged through bankruptcy in the same fashion as general unsecured debt.
However “the requirements for student loan discharge have become progressively
more restrictive.” Mersmann, 505 F.3d at 1042. First, the legislative branch put in place
a time restriction. Under the 1978 version of the Bankruptcy Code, Congress made
student loans nondischargeable in Chapter 7 cases for the first five years of repayment
unless it would constitute an “undue hardship.” Id.; Pub. L. No. 96-598. In 1990, the
time restriction was extended to seven years. Pub. L. No. 101-647. Then, in 1998,
Congress amended Section 523(a)(8) to eliminate the time restriction altogether and
instead establish a presumption of nondischargeability unless the debtor establishes an
“undue hardship.” Pub. L. No. 105-244. Accordingly, “now student loans may not be
discharged in Chapter 7 or 13 cases, except in one narrow circumstance when
‘excepting such debt from discharge ... would impose an undue hardship on the
debtor and the debtor’s dependents.’” Mersmann, 505 F.3d at 1042-43 (emphasis in
original).
The Bankruptcy Code does not specifically define the narrow term “undue
hardship.” However, the Court is guided by binding appellate precedent. The test used
by most courts to determine whether a debtor is entitled to a hardship discharge comes
from Brunner v. New York State Higher Educ. Servs. Corp., 831 F.2d 395, 396 (2d Cir.
1987). Accord Polleys, 356 F.3d at 1307 (“Most circuits have adopted a version of the
Second Circuit’s three-factored test in Brunner....”).
The Brunner facts bear some similarities (but also some differences) to the
current Adversary Proceeding. In Brunner, the debtor was not disabled or elderly and
had no dependents. She was also skilled and well educated. She did not recount to
the court any specific jobs that she had sought and been refused, and did not attempt to
find a job outside of her chosen field of work .... she filed for discharge within a month
of the date the first payment of the loans became due, made virtually no attempt to
repay, and did not request a deferment of payment.” Polleys, 356 F.3d at 1307 (reciting
Brunner facts). Considering the foregoing, the Second Circuit developed a three-part
test referred to as the “Brunner Test” and decided that the debtor was not entitled to
discharge her student loans. Under the Brunner Test, a plaintiff is required to prove:

25
Annendix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/2015:56:10 Page26of33

26c

(1) that the debtor cannot maintain, based on current income
and expenses, a ‘minimal’ standard of living for herself and
her dependents if forced to repay the loans; (2) that
additional circumstances exist indicating that this state of
affairs is likely to persist for a significant portion of the
repayment period of the student loans; and (3) that the
debtor has made good faith efforts to repay the loans.
Brunner 831 F.2d at 396. The United States Court of Appeals for the Tenth Circuit
adopted the Brunner Test. Alderete, 412 F.3d at 1204 (“This Court has since
considered this question and adopted the Brunner test as well.”); Polleys, 356 F.3d
1309 (“We ... join the majority of the other circuits in adopting the Brunner framework.”)
All three prongs of the Brunner test must be satisfied before an “undue hardship”
discharge can be granted under Section 523(a)(8). Alderete, 412 F.3d at 1205 (“Under
the Brunner analysis, if the court finds against the debtor on any of the three parts, the
inquiry ends and the student loan is not dischargeable.”); see also Brown v. Sallie Mae,
Inc. (In re Brown), 442 B.R. 776, 781 (Bankr. D. Colo. 2010).
Although requiring application of the Brunner Test, the Tenth Circuit also issued
a clarification:
... to better advance the Bankruptcy Code’s “fresh start”
policy, and to provide judges with the discretion to weigh all
the relevant considerations, the terms of the [Brunner] test
must be applied such that debtors who truly cannot afford to
repay their loans may have their loans discharged.
Polleys, 356 F.3d at 1309. But, even with this clarification, the Brunner Test is tough to
meet. See e.g. Hemar Ins. Corp. ofAmer. v. Cox (In re Cox), 338 F.3d 1238, 1243
(11th Cir. 2003) (“Considering the evolution of § 523(a)(8), it is clear that Congress
intended to make it difficult for debtors to obtain a discharge of their student loan
indebtedness.”)
a.

The First Brunner Element.

The first Brunner element requires the Plaintiff to prove that he “cannot maintain,
based on current income and expenses, a ‘minimal’ standard of living for [himself]... if
forced to repay the loans.” The Undisputed Facts establish that the Plaintiff is currently
in dire financial circumstances. He is “currently unemployed and not seeking
employment and therefore has current income of $0.” Undisputed Fact No. 26. That is
as low as income goes. According to his Schedule I, his monthly expenses are about
$2,284. Docket No. 31 in Main Case; see also Undisputed Fact Nos. 28-31 (identifying
certain of Plaintiffs expenses that he pays “when he has income”). So, on this record,
the Plaintiff is deeply in the hole every month thereby suggesting that he cannot
maintain a “’minimal’ standard of living” now.

26
AnnpnHiy A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page27 of 33

276

The DOE argues that the Court should not focus “solely on a debtor s current
income, because a debtor seeking discharge must demonstrate “that he has maximized

339 (Bankr. S.D. Fla. 2013)). The Gesualdi decision certainly supports the DOE s
argument. It has some persuasive value, but it is not precedential.
The Court chooses to look closer to home for authority on this issue. In Polleys,
the Tenth Circuit explained the import of the first Brunner factor:
This first part should serve as the starting point for the undue
hardship inquiry because information regarding a debtor’s
current financial situation generally will be concrete and
readily obtainable.
Polleys 356 F.3d at 1310. So, the appellate court focused on the “current financial
situation” — not the debtor’s ability to increase or maximize income. Furthermore, the
Tenth Circuit appeared to acknowledge that the first Brunner factor was satisfied in
Polleys because the debtor established that she “ha[d] no discretionary income live[d]
on the largess of her parents, and [was] unemployed.” Id.] see also Roe v. Co//ege
Access Network (In re Roe), 295 Fed. Appx. 927, 929 (10th Cir. 2008) (unpublished)
(debtor was unemployed; implicitly suggesting that dire current circumstances satisfy
first Brunner prong); Brown, 442 B.R. at 782 (evaluating only current income and
expenses under first Brunner element and holding that based on current income and
expenses, [the debtor] is not able to maintain a minimal standard of living for herself and
her three children (with or without having to repay the loan).”).
The Court concurs with the foregoing authority and concludes that the first
Brunner factor is a “starting place” looking primarily toward “current income and
expenses ” Considerations of income maximization are more appropriately considered
under the second and/or third Brunner elements rather than the more static first Brunner
factor The Court has evaluated the Plaintiffs “current income and expenses and the
evidence is that he is unemployed and earns nothing. Under the current circumstances
(i.e. with no job) the Plaintiff cannot currently maintain a “’minimal standard of living^
Thus, the record evidence is sufficient for a rational trier of fact to decide in the Plaintiffs
favor on the first Brunner factor
b.

The Second Brunner Element.

The second element of the Brunner Test requires a plaintiff to show that
“additional circumstances exist indicating that this state of affairs [i.e., the current
financial condition] is likely to persist for a significant portion of the _repi°f
the student loans.” Brunner, 831 F.2d at 396. As further explained by the Tenth Circuit,
when applying the second Brunner factor, the trial court.

27

Annftndix A

Case:18-01230-TBM Doc#:122 Filed:01/06/20 Entered:01/06/20 15:56:10 Page28 of 33

286

need not require a “certainty of hopelessness." Instead,
a realistic look must be made into a debtor’s circumstances
and the debtor’s ability to provide for adequate shelter,
nutrition, health care, and the like. Importantly, “courts
should base their estimation of a debtor’s prospects on
specific articulable facts, not unfounded optimism,” and the
inquiry into future circumstances should be limited to the
forseeable future, at most over the term of the loan.
Pollevs 356 F.3d at 1310 (citations omitted). The reason for the forward-looking
second Brunner element is simple. “A recent graduate’s salary might be so low that it is
difficult to pay the loans now, but it is clear that his salary will increase in the future and
therefore his loans should not be discharged.” Alderete, 412 F.3d at 1205.
The second Brunner factor can be further broken down into two sub-elements.
First the Plaintiff must prove by a preponderance of the evidence “that his financial

must establish by a preponderance of the evidence that his f'nancial difficulties are
likely to persist for a significant portion of the repayment period. Id. Disabilities
including emotional or medical conditions, can be a basis for satisfying the second
Brunner factor. See, e.g., Polleys, 356 F.3d at 1311. However a,loan. Id
disabling medical condition is not a prerequisite for dischargeability of student loans. Id.
So what are the Undisputed Facts relevant to the second Brunner prong in this

ssxzsss.

r»«.«„

dependents. Id. At least for now, he only needs to find a way to make ends meet for
himself. The Plaintiff is highly educated. He graduated from a prestigious liberal arts
school Colorado College, in May 2005 with a double Bachelor of Arts degree in English
and Biology. Undisputed Fact No. 4. He continued his education by attending the
Phoenix School of Law. He graduated with a Juris Doctorate degree in May 2013.
Undisputed Fact No. 11.
In terms of work, the Plaintiff has an interesting and varied employment history.
While in college, the Plaintiff served as a tutor in anatomy and physiology as well as, a
Torino Italy during the 2006 Winter Olympic Games. Undisputed Fact No. 6 The
U S.A. House was a high-profile hospitality center for celebrities, athletes, politicians,
and diqnitaries. Id. At various times, the Plaintiff worked in hospitality for one of the
premiere Colorado resorts: the Broadmoor Resort. Undisputed Fact No 7^ Later, he
was employed as a manager and supervisor for four high-volume nightclubs ,n
Colorado. /^.“He^lso'has'been engaged in the fitness-industry-as-a-ftaessxoach-and.
28
Annpnriiy A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page29 of 33

296

co-chair for the Board of Advisors for a fitness technology company. Undisputed Fact
Nos. 10 and 12.
After law school, the Plaintiff focused mainly on other employment. Unfortunately,

event the Plaintiff entered the legal field as a contract law clerk for a law firm: Negretti &
Associates. Undisputed Fact No. 13. He did legalresearch and wrrttng for the law firm
for about 4-5 years from 2013 until May 2018. Undisputed Fac No. 13 and 15. He
earned approximately $25 per hour at Negretti & Associates. Undisputed Fact No. 13.
After many years, the law firm terminated the Plaintiff because of the vindictive actions of
the Plaintiffs ex-wife’s mother. Undisputed Fact No. 15. There is no evidence that the
Plaintiffs work product at the law firm was substandard. Indeed, his long tenure with the
law firm suggests otherwise. Meanwhile, from August 2014 to January 2018, the Plaintiff
supplemented his law firm income by selling life insurance for MassMutual, a big name in
the* insurance industry. Undisputed Fact No. 16. He earned state and national financial
licenses to sell life insurance and annuities; however, the licenses were suspended
because the Plaintiff failed to respond to a letter about his use of the VPN network
Undisputed Fact No. 17. Although use of a VPN network is common, the Plaintiff has
not taken any steps to get back into good standing for his licenses. Id.
For reasons not clear from the Undisputed Facts, the Plaintiff seems to have
qiven up any serious efforts at employment starting in 2018 even though he has a
strong educational background and great depth of experience in numerous industnes^
He testified that he is not currently seeking employment. Undisputed Fact No. 26. He
seems to have no interest in the hospitality sector “mostly because [he] just doesn t
want to work in a restaurant.” Undisputed Fact No. 20. Although he occasionally
applies for positions, the Plaintiffs main focus has been developing new business
ventures including a software application and converting a bus into a tiny house.
Undisputed Fact No. 21. These so-far-unpaid efforts take up almost 100 hours a week
— so the Plaintiff seems not to have time for a paid position. That is his choice.
He earned above

25 From a health perspective, the Plaintiff voluntarily committed that he would not
raise any medical issues in support of his claims in the Complaint. Tr. at 34.
So in summary, the Undisputed Facts demonstrate that the Plaintiff is a young,
highly-educated man with no dependents. He has job experience in numerous areas.
7
Tho Pn. irt rpmgnbes the different income measures presented including “gross income,"
“adjusted gross income,” and “taxed social security earnings.” The differences are norm
or
Court decision on the Motion for Summary Judgment.

__

29
Annpnrliy A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page30 of 33

305

His best prospects would seem to be focusing on passing the bar examination and
practicing law and/or reinstating his state and national licenses to sell insurance and
annuities. He has done neither. And, he declines to return to the hospitality industry.
So, he is unemployed for the moment. However, from all indications he has a strong
potential for future employment should he choose to go back to work. There is no
record evidence of any medical disabilities.
Against this background of Undisputed Facts, the Plaintiff failed in his burden to
provide evidence that his financial situation is not likely to improve. He did not show,
with competent evidence, that he has made, or is currently making, diligent efforts to
secure stable employment or that he is trying to maximize his personal and professional
resources. The Court received nothing on that score except argument in the Response.
The Plaintiff has hinted repeatedly at a medical disability. However, he committed not
to raise that issue in this Adversary Proceeding. And, in any event, he provided no
competent evidence that any “additional circumstances exist indicating that [his] current
state of affairs are likely to persist for a significant portion of the repayment period of the
student loans.” Polleys, 356 F.3d at 1310 (referring to the second element of the
Brunner test) Even if the Plaintiff had provided evidence that his financial situation was
unlikely to improve (which he has not), the Plaintiff also is required to provide evidence
that his financial difficulties are likely to persist for a significant portion of the repayment
period for his student loans. His remaining repayment period is at least 21 years.
Undisputed Fact No. 46. The Plaintiff has not demonstrated that he will be chronically
unemployed for a significant portion of that 21-year period. Indeed, on his Schedule J,
the Plaintiff stated: “I do not plan on remaining in my current desperate situation. I
don’t have specifics, but I fully anticipate pulling myself out of these circumstances.”
Just so.
The Court has sympathy for the Plaintiff. Hopefully, his future will be bright with
economic success. Perhaps not. But what is clear for now is that the Plaintiff simply
failed to meet his evidentiary burden in contesting the second prong of the Brunner
Test On the current record, no rational trier of fact could determine that additional
circumstances exist indicating that the Plaintiff’s current dire financial condition is likely
to persist for a significant portion of the repayment period of his student loans. So, the
Court is obligated to deny discharge of the Plaintiff’s student loan debt owed to the
DOE.

c.

The Third Brunner Element.

The Debtor’s failure to provide evidence sufficient for the Court to be able to
decide the second Brunner element in his favor is fatal to his case. Roe, 295 Fed.
Appx. at 929 (“If a debtor fails to show all three elements, there is no undue hardship
and the loans cannot be discharged.”) However, for good measure, the Court also
considers the third Brunner element pursuant to which the Plaintiff must prove that he
“has made good faith efforts to repay the loans.” The Tenth Circuit has instructed that
“an inquiry into a debtor’s good faith should focus on questions surrounding the
legitimacy of the basis for seeking-a discharge.—Po//eySr356-Fi3d-at-1310—The-failure
30
Annonrliv A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page31 of 33

31c

,o make loan
standing alone, does
Fed. Appx. at 930-31 (same).
The Undisputed Facts demonstrate that on student loan debt of about $210,000,
the Plaintiff has made only very nominal payments. He repaid $130.92 in 2016 and
$109.10 in 2017. That totals to just $240.02 over the life of the obligation so far.
Undisputed Fact No. 38. Mathematically, the Plaintiff has paid only ^outO-'l /o ofthe
debt for his law school education. It is really a pittance. Even though the Plaintiff had
above median-income gross income in 2015 and 2016, he demonstrated no real resolve
to materially apply his income to the student loan debt.
However, the Plaintiff did something to address his delinquent student loan

IBR and based upon the Plaintiffs current stated income of $0, the Plaintiff s current
repayment amount is $0 per month. Undisputed Fact Nos. 41-42 and 44. If the
Plaintiffs adjusted gross income increases to $20,415 (which is just above 150/o of the
Health and Human Services Poverty Guideline), then the Plaintiff would be required
under the IBR to pay only $21 per month. Undisputed Fact No. 48. The Plaintiff has
candidly conceded that a payment of $21 per month would not be a hardship.
Undisputed Fact No. 48. If the Plaintiff remains in the IBR and makes any required
monthly payments but does not satisfy the debt in full in the next 21 y®|rs; fh®n th®
outstanding student loan debt would be completely forgiven by the DOE. Undisputed
Fact Nos. 45-46.
One might wonder why the Plaintiff is so intent on discharging his student loan
debt when he is enrolled in a plan - the IBR - allowing him to pay just $0 per month
for now while he is unemployed and then only nominal payments ($21 per month) after
he hits 150% of the Health and Human Services Poverty Guideline. Of course
payments would increase if the Plaintiffs income increases in the future. And, if the
Plaintiff is not able to complete full repayment after 21 years, then the debt would be
completely forgiven. That type of repayment plan seems almost tailor-made for the
circumstances presented in this case.
However the Court’s focus on the third Brunner element is not really on common
sense solutions.’ Instead, the Court is called upon to address the Plaintiff's good faith
and the legitimacy of the basis for seeking a discharge. The Tenth Circuit has
instructed the following to be considered under the third Brunner element.
[T]he failure to make a payment, standing alone, does not
establish a lack of good faith. Courts should consider
additional factors such as whether the debtor immediately
sought to discharge her student loans or opted to

31
Annonrliv A

Case:18-01230-TBM Doc#: 122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page32 of 33

32e

consolidate or defer her loans. Courts also ought to
consider whether the debtor is “actively minimizing current
household living expenses and maximizing personal and
professional resources.” Additionally, courts should assess
whether the debtor is “attempting to abuse the student loan
system” by seeking to discharge her debt. A debtor who
“willfully contrives a hardship in order to discharge student
loans should be deemed to be acting in bad faith.”
Roe, 295 Fed. Appx. at 930-31 (citing Polleys, 356 F.3d at 1311 -12 and Alderete, 412
F.3d at 1206). Weight also should be given to the steps the Plaintiff took prior to filing
for bankruptcy such as the entering into an income repayment program. Alderete, 412
F.3d at 1206.
Based upon the Undisputed Facts (and applying summary judgment standards)
Court finds that a reasonable trier of fact could determine that the Plaintiff acted in
the
aood faith. It is a very weak case for the Plaintiff. However, the evidence establishes
that the Plaintiff did not seek to discharge his student loan debt immediately after he
graduated from law school. Instead, he filed for bankruptcy and sought a discharge
about five years after the debt became due. Compare with Brunner, 831 F.2d at 397
(“Brunner filed for the discharge within a month of the date the first payment on her
loans became due.”) And, then, he did not ignore his student loan obligations
completely. The Plaintiff sought and obtained an initial deferment.
Thereafter, the Plaintiff entered into an income-based repayment plan — the IBR.
“fPlarticipation in a repayment program is not required to satisfy the good-faith prong of
the Brunner test." Alderete, 412 F.3d at 1206. But, enrolling in an income repayment

third Brunner element. Similarly, in Roe, the debtor lacked good faith because, among
other things, she refused to consolidate her loan and enter into an inc
repayment plan. Roe, 295 Fed. Appx. at 931. See also Polleys, 356 F 3d at 1312
(finding good faith since debtor consolidated her loans and “entered into deferral
Droarams ”). So, again, the Plaintiff took some action to address his student loan debt
by entering into the IBR. And, then, the Plaintiff did make some Payments. It was not
much: only eleven payments totaling $240.02. But that is a small shred of evidence
supporting good faith, an inquiry which focuses on the legitimacy of the debtor s b®s'^
for seeking a discharge. Polleys, 356 F.3d at 1310. Compare with Roe, 295 Fed. Appx.
at 930 (debtor showed lack of good faith when she “had never made a payment on her
student loans” and had not applied for a job in over eleven years).
The Court also considers whether the Plaintiff has been “actively minimizing
n .rrpnt household living expenses.” He has. The evidence shows that the Plaintiff lives

32
AnnonHiy A

Case:18-01230-TBM Doc#:122 Filed:01/06/20

Entered:01/06/20 15:56:10 Page33of33

33e

rent-free with his mother. Undisputed Fact No. 28. When he can afford it, he spends
only about $200 per month on food. Undisputed Fact No. 29.
There is no record evidence that the Plaintiff willfully contrived a hardship in order
to discharge student loans. Perhaps he made some bad decisions and is not trying
hard enough. Indeed, the evidence is that he is not “maximizing personal and
professional resources.” As set forth previously, the Plaintiff has acknowledged that he
is not actively seeking outside employment. Undisputed Fact No. 26. Instead he is
spending almost all his time on his own projects (developing a software application and
building a tiny house) hoping that such efforts eventually will pay a dividend.
In the end, there is some evidence both for and against the Plaintiffs good faith.
On the current record, the Plaintiffs likelihood of prevailing on the third Brunner element
seems weak. However, in a summary judgment posture, the Court views the evidence
in the light most favorable to the nonmovant (the Plaintiff). The record evidence could
lead a rational fact-finder to resolve the third Brunner factor in favor of the Plaintiff.8
VIII.

Final Conclusion.

This is a difficult case. The Plaintiff is currently unemployed and presently unable
to contribute much to the repayment of his significant student loan debt incurred for law
school. Faced with the Motion for Summary Judgment, it was incumbent on the Plaintiff
to come forward with competent evidence bearing on “undue hardship” under Section
523(a)(8) and the Brunner Test. The Court is somewhat reticent to decide the case on
summary judgment rather than after trial. However, the Plaintiff did not provide evidence
pursuant to which a rational trier of fact could determine (under the second Brunner
factor) that additional circumstances exist indicating that the Plaintiffs current dire
financial condition is likely to persist for a significant portion of the repayment period of
his student loans. Thus, summary judgment in favor of the DOE is mandated.
Dated this 6th day of January, 2020.
BY THE COURT:

Thomas B. McNamara
United States Bankruptcy Judge

a_____ TheCourtmakes this determination based upon the summary judgment context pursuant to
which it must view the evidence in the light most'favorable to the Plaintiffr However,-if the same evidence,
were presented at trial without such presumption, the Court very well might reach a different conclusion.

33
Annpnrliv A

34c
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 1 of 30 filed

US. Brakruptcy Appellate
Pane) of the Tenth Circuit

July 23,2020

NOT FOR PUBLICATION*
UNITED STATES BANKRUPTCY APPELLATE PANEL

Blaine F. Bates
Clerk

OF THE TENTH CIRCUIT

IN RE GORDON BEECHER NITKA,

BAP No. CO-20-002

Debtor.

Appellant,

Bankr. No. 18-16296
Adv. No. 18-01230-TBM
Chapter 7

DEPARTMENT OF EDUCATION,

OPINION

GORDON BEECHER NITKA,

v.

Appellee.
Appeal from the United States Bankruptcy Court
for the District of Colorado

Submitted on the briefs.**
Before CORNISH, HALL, and LOYD, Bankruptcy Judges.

CORNISH, Bankruptcy Judge.

*
This unpublished opinion may be cited for its persuasive value, but is not
precedential, except under the doctrines of law of the case, claim preclusion, and issue
preclusion. 1 Oth Cir. BAP L.R. 8026-6.
**
After examining the briefs and appellate record, the Court has determined
unanimously to honor the parties' request for a decision on the briefs without oral
argument-^^^^-R-R^k^-P-gOl^rblJfhecase is therefore submitted without oral
argument.

Annemrlix F

35e
BAP Appeal No. 20-2

Filed: 07/22/2020

Docket No. 51

Page: 2 of 30

The standard for declaring student loan debt dischargeable is exacting and only
available to a debtor with no real prospects of earning income that supports a minimum
standard of living while repaying the debt. The debtor in this appeal asks the Court to
reverse the bankruptcy court’s dismissal of a complaint seeking to discharge student loan
debt pursuant to 11 U.S.C. § 523(a)(8).1 The debtor contends he is unable to obtain
gainful employment despite a strong employment history and his prioritization of
multiple entrepreneurial pursuits. Based on these facts, we AFFIRM the Bankruptcy
Court’s dismissal of the debtor’s complaint which sought to discharge his student loans.
I.

Factual & Procedural Background

Gordon Beecher Nitka (the “Debtor”) filed a pro se petition under chapter 7 of the
Bankruptcy Code in the Bankruptcy Court for the District of Colorado (the “Bankruptcy
Court”) on July 19, 2018. The Debtor scheduled no secured claims in his petition. Aside
from minimal claims for unpaid state and federal income taxes, the Debtor s largest
unsecured debt is a student loan in the amount of $191,081 owed to the Department of
Education (the “Department”). Simultaneously, the Debtor also filed an adversary
proceeding requesting a discharge of the student loan debt as an undue hardship pursuant
to § 523(a)(8) (the “Complaint”).
The Complaint named the Department and its loan servicer, NelNet, Inc., as
defendants. The Complaint alleged the Debtor incurred student loan debt to attend law

-l------ All-future references-tQ—Bankniptcy-Code.’Ii^Code^oiL^^/lrefer to Title 11 of
the United States Code.
2
Annpndiy F

36e
BAP Appeal No. 20-2

Filed: 07/22/2020

Docket No. 51

Page: 3 of 30

school between 2010 and 2013 at Phoenix School of Law. Since graduating from law
school, the Complaint alleged the Debtor experienced “a series of unfortunate legal and
medical events that caused dire current financial circumstances.”2 Conflicts arose in the
discovery stage of the adversary proceeding as the Department probed the Debtor s
alleged medical conditions. The Department conducted a deposition of the Debtor, during
which he objected to questions pertaining to the unfortunate medical events that impacted
his financial situation, including explaining a $200 monthly medical expense listed in
discovery responses and the medications he took for his condition. To resolve the
Debtor’s objection, the Bankruptcy Court conducted a telephonic hearing at which it
sustained the Debtor’s objection to disclosing his current medications but overruled his
objection to disclosure of medical events and the $200 monthly medical expenses. As
additional discovery disputes arose related to the Department’s requests for production
and interrogatories, the Bankruptcy Court ordered the Debtor to supplement prior
discovery responses.
The Debtor’s supplemental discoveiy responses prompted the Department to file a
motion to compel him to disclose additional information “regarding his alleged medical
and mental health conditions as a basis for finding undue hardship or affecting his ability
to obtain or retain employment” or to allow reopening of discovery (the “Discovery
Motion”).3 The Department alleged the Debtor’s supplemental discovery responses

2
Debtor’s Complaint to Determine Dischargeability of Student Loan at 2, in
Appellant’s App. at 2.
,
,
,
-3-------Bcfendani±s-MQti&nfar--£iJrtherJOrders Regarding Incomplete Disclosures, and
For Order Limiting Plaintiff’s Ability to Introduce Evidence ofAlleged Medical
3
Annftndix F

376
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 4 of 30

appeared to rely principally on alleged medical conditions as a basis for his hardship. The
Department indicated this was the first time the Debtor appeared to rely on his medical
condition to support a finding of hardship and requested additional discovery to obtain
medical records and conduct another deposition. The Bankruptcy Court held a hearing on
the Discovery Motion and the Debtor’s response, at which it gave the Debtor two
options: (1) if the Debtor intended to rely on the medical or mental health conditions at
trial, the

court would require him to produce additional information and discovery would

be reopened; or (2) if the Debtor did not intend to rely on the medical or mental
conditions at trial, the court would grant the motion to exclude the introduction of such
evidence at trial. After wavering, the Debtor “voluntarily admitted on the record that he
did not intend to rely on any medical and/or mental health condition(s) in support of his
case at trial.”'1 Accordingly, the Bankruptcy Court granted the Department s request to
prohibit the Debtor from introducing evidence regarding his medical conditions at trial
(the “Discovery Order”).
The Debtor appealed the Discovery Order to this Court,6 sought leave to appeal an
interlocutory order,7 sought certification of a direct appeal to the United States Court of
Appeals

for the Tenth Circuit Court (the “Tenth Circuit”),8 and requested a stay pending

Conditions Under Rule 37, or, in the Alternative, Leave to Reopen Limited Discovery at
1, in Appellant’s App. at 73.
4
Minutes ofProceeding/Minute Order at 2, in Appellant s App. at 103.
5
Id. at 1, in Appellant’s App. at 102.
6
Appellant’s App. at 108.
7
Appellant’s App. at "1T0:~
~
—
—---- --------- ——
8
Appellant’s App. at 185.
4
Annpnrlix F

38e
BAP Appeal No. 20-2

Filed: 0712212020

Docket No. 51

Page: 5 of 30

appeal. The Bankruptcy Court denied the Debtor’s request for certification to the Tenth
Circuit and stay pending appeal.9 Shortly thereafter, this Court dismissed the appeal of
the Discovery Order as interlocutory.
Motion for Summary Judgment
After entry of the Discovery Order, the Department filed a motion for summary
judgment, arguing there were no genuine issues of material fact (the “Motion for
Summary Judgment”) pursuant to Federal Rule of Civil Procedure 56, made applicable to
this case by Federal Rule of Bankruptcy Procedure 7056.10 The Motion for Summary
Judgment alleged the Debtor incurred debts totaling $209,716.48 as of November 5,
2019, to attend law school in Arizona. The Debtor graduated from law school but never
passed the Arizona bar exam. The Debtor worked as a contract employee at an Arizona
law firm earning $25 per hour until the spring of 2018. The Debtor also sold insurance
for MassMutual between 2014 and 2018.
The Debtor participated in an income-driven repayment program that reduced his
monthly student loan payment based on his income beginning in June 2015. The Debtor
made eleven payments on the student loan, totaling $240.02. Based on the Debtor s
current income of $0, his current monthly payment is $0. Finally, the Motion for

9
Procedural Order on Plaintiff’s Motion for Leave to Appeal, Request for
Certification ofDirect Appeal, and Motion for Stay Pending Appeal at 4, in Appellant’s
i°PP Defendant’s Motion for Summary Judgment, in Appellant’s App. at 388. All future
references to “Bankruptcy-Rule(s-)^are-to-the-F-ederal-Rules_of Bankruptcy_Procedure. All
future references to “Civil Rule(s)” are to the Federal Rules of Civil Procedure.
5

Annfinriiv F

39e
BAP Appeal No. 20-2

Filed: 07/22/2020

Docket No. 51

Page: 6 of 30

Summary Judgment asserted that if the Debtor continues the income-driven repayment
plan for 25 years, the remaining student loan balance will be forgiven.
The Debtor responded to the Motion for Summary Judgment and filed a motion
for sanctions, alleging the Department made false statements of fact in the Motion for
Summary Judgment. The Debtor argued the following statements were false: (1) that he
first raised reliance on medical issues as support for finding undue hardship in his
supplemental discovery responses; (2) that he was 36 years old (the Debtor was 37 at the
time); (3) that he had not looked for employment since the spring of 2018; and (4) that
his taxable income in 2015 was $28,856 instead of $61,901, and in 2016 was $54,643
instead of $83,000.11
The Bankruptcy Court compared the undisputed facts asserted by the Department
with the record before it, finding “[e]very alleged undisputed fact is accurate and fully
supported. «12 Accordingly, the Bankruptcy Court denied the Debtor’s motion for
sanctions13 and a subsequent motion to reconsider.14 After considering the undisputed
facts, the Bankruptcy Court concluded the Debtor’s complaint did not allege sufficient
facts to support discharging the student loan debt pursuant to § 523(a)(8) .The
Bankruptcy Court, in a detailed and articulate order, granted the Motion for Summary

11
12

Plaintiff’s Motion for Sanctions, in Appellant’s App. at 417.
Order Granting Defendant’s Motion for Summary Judgment at 7, in Appellant s

App. at 557.
13
Order Denying Plaintiff’s Motion for Sanctions, in Appellant s App. at 535.
T4
Order Denyingd*laintff2s-MntMri4o-Reconsider-O.Kde.r_DenyjngPlaintiff s Motion
for Sanctions, in Appellant’s App. at 545.
6

Annfinriix F

40e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 7 of 30

Judgment on January 6, 2020,15 and vacated the trial in the adversary proceeding (the
“Summary Judgment Order”).16 The Debtor filed a timely notice of appeal of the
Summary Judgment Order.17
The Debtor’s Educational & Employment History
The Debtor enrolled in Colorado College in Colorado Springs, Colorado, in 2002.
During his college years, the Debtor worked as a tutor in anatomy and physiology and a
surgical anatomy paraprofessional. He graduated from Colorado College in May 2005,
completing his courses early by attending summer sessions. Also, during college and
thereafter, the Debtor worked as a bartender at the Broadmoor Resort in Colorado
Springs. In 2006, the Debtor served as a “co-director of operations of the U.S.A. House in
Torino, Italy,” a hospitality program at the 2006 Winter Olympics.18 The Debtor also
worked as security at a nightclub in Colorado Springs and became involved in nightclub
management until he decided to attend law school in 2010.
The Debtor attended Phoenix School of Law in Phoenix, Arizona, graduating in
May 2013 While in law school, the Debtor held several legal-related jobs in the Phoenix
area. The Debtor also provided services as a fitness coach for bodybuilding clients and
served as an advisor to an unsuccessful San Francisco based start-up fitness company.

15

Order Granting Defendant’s Motion for Summary Judgment, in Appellant’s App.

16
Notice ofRuling and Order Vacating Trial, in Appellant’s App. at 550.
17
Notice ofAppeal, in Appellant’s App. at 588.
-j.g----- Summary~Judgment-©rder-at-1-8,-7/?Appellant_S-App._at_568_.— ---------------------19
Id. at 18-19, in Appellant’s App. at 568-69.
7
Annfindix F

418
BAP Appeal No. 20-2

Filed: 07/22/2020

Docket No. 51

Page: 8 of 30

After graduating from law school, the Debtor sat for but failed the Arizona bar
exam twice. Beginning in the summer of 2013, the Debtor took a position as a law clerk
at the Arizona law firm, Negretti & Associates. His responsibilities included performing
legal research and writing for personal injury cases. The Debtor worked as a contract
employee earning $25 per hour between the summer of 2013 and either April or May of
2018, rising to the rank of firm director.
In addition to working for the law firm, the Debtor sold commission-based
. The Debtor
insurance products for MassMutual between August 2014 and January 2018
worked twenty to thirty hours per week selling insurance. The position required him to
hold a license to sell insurance and annuities as well as other specialized financial
services licenses such as the Series 6. MassMutual terminated him based on issues related
to computer access and monitoring. At times, the Debtor earned income from the law
firm and MassMutual that allowed him to support himself. The Debtor earned gross
income of $51,901 in 2015, and $83,000 in 2016. The Debtor did not file an income tax
return in 2017, and in 2018 he reported $8,381 in income.
The Debtor indicated that although he applied for numerous positions, he has been
unable to find employment. Therefore, he is concentrating his efforts on two fronts:
building a mobile application that allows restaurant servers to take customer payments on
a mobile phone and converting an old bus into a vacation rental that he plans to park near
Colorado ski resorts. The Debtor lives with his mother and pays no rent.
Medical Circumstances

8
Annpnrliy F

42a
BAP Appeal No. 20-2

Filed: 07/22/2020

Docket No. 51

Page: 9 of 30

Although the Debtor’s complaint alleged that medical events impacted his
financial situation, it did not elaborate on his medical conditions nor how they prevented
1 im from working. At his deposition, the Debtor testified he suffered an injury to his
right bicep, which caused “physical labor [to be] painful to do, not impossible but
painful

.”20 The Debtor also stated that other undisclosed medical conditions impacted his

ability to work in the past but refused to provide further details.
II.

Jurisdiction

“With the consent of the parties, this Court has jurisdiction to hear timely-filed
appeals from ‘final judgments, orders, and decrees’ of bankruptcy courts within the Tenth
Circuit. ”21 Neither party elected to have this appeal heard by the United States District
Court for the District of Colorado; thus, the parties have consented to our review.
“A decision is considered final if it ‘ends the litigation on the merits and leaves
nothing for the court to do but execute the judgment,

”’22

The disposition of an adversary

proceeding is a final order or judgment for purposes of appellate review.23 Additionally,

21

sZ"gTv Wya 9L*p

re S,might), 248 B.R. 403, 409 (10th Cir.

BAP 2000) (first quoting 28 U.S.C. § 158(a)(1), and then citing 28 U.S.C. § 158(b)(1),
(c)(l)andFed. R. Bankr. P.8002).
.
_
. , ,
22
In re Duncan, 294 B.R. 339, 341 (10th Cir. BAP 2003) (quoting Quackenbush v.
Alhtateu'ok
Ins Co
517 U.S. 706,
712Hook),
(1996)).
f
vManzanares
(in re
391 B.R. 211, 2008 WL 2663370 at *2 (10th
Cir. BAP July 8, 2008) (first citing 28 U.S.C. § 158(a)(1) & (c)(1); Fed. R. Bankr _
8001-8002; 10th Cir. BAP L.R. 8001-1; and then citing Quackenbush, 517 U.S. at IU
(order is finarifTr‘“ ends~theiitigation-on-the mer-its-and-leaves,npthing for the court to do
but execute the judgment.”’)).
9
Annfindix F

436
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 10 of 30

any prior interlocutory orders or decrees merge into a final judgment, 24 Accordingly, we
have jurisdiction to hear the appeal of the order granting the Motion to Dismiss and any
interlocutory orders from which the Debtor seeks appeal.

24
McBride v CITGO Petroleum Corp., 281 F.3d 1099,1104 (10th Cir. 2002) (citing
Cooper v. Am. Auto. Ins. Co., 978 F.2d 602, 607-09 (10th Cir. 1992) (“[A] notice of
appeal whidi names the finarjudgmenris^ufficientto-support rev-iew-of-all earJier_orders
that merge in the final judgment.”)
10
AnnonHiv P

446
BAP Appeal No. 20-2

III.

Filed: 07/22/2020

Docket No. 51

Page: 11 of 30

Standard of Review

We review a bankruptcy court’s dismissal of an adversary proceeding on summary
judgment de novo, applying the same standard as the bankruptcy court.25 “Whether a
debtor’s student loans would impose an ‘undue hardship’ under § 523(a)(8) is a question
of law. It requires a conclusion regarding the legal effect of the bankruptcy court’s
findings as to the debtor’s circumstances, and is therefore reviewed de novo.

”26

“Dc novo review requires an independent determination of the issues, giving no
special weight to the bankruptcy court’s decision,

”27 «

Summary judgment is appropriate

only if‘the pleadings, depositions, answers to interrogatories, and admissions on file,
together with the affidavits, if any,’ when viewed in the light most favorable to the non­
moving party, ‘show that there is no genuine issue as to any material fact and that the
moving party is entitled to judgment as a matter of law.

5 ”28

The Debtor also appeals several of the Bankruptcy Court’s rulings on discovery
issues and a motion for sanctions. Discovery rulings and decisions on sanctions are
reviewed for abuse of discretion.29 A trial court “abuses its discretion when it (1) fails to

25
LTFReal Estate Co. v. Expert S. Tulsa, LLC (In re Expert S. Tulsa, LLC), 522
B.R. 634 643 (10th Cir. BAP 2014) (quoting Rushton v. Bank of Utah (In re C.W.
Mining Co.), All B.R. 176, 180 (10th Cir. 2012), ajf’d, 1A9 F.3d 895 (10th Cir. 2014)).
26
In re Alderete, 412 F.3d 1200, 1204 (10th Cir. 2005) (quoting Educ. Credit Mgmt.
Corp. v. Polleys, 356 F.3d 1302, 1305 (10th Cir. 2004)).
27
In re Expert S. Tulsa, 522 B.R. at 643(citing Salve Regina Coll. v. Russell, 499
U.S. 225, 238 (1991)).
28
Expert S. Tulsa, LLC v. Cornerstone Creek P ’ship (In re Expert S. Tulsa, LLC),
534 B.R. 400, 408 (10th Cir. BAP 2015) (quoting Anderson v. Liberty Lobby, Inc., All
U.S. 242,247 (1986)).
_
................. ,
»
Ridenour v. ^T^7/r^397i7:3d-925r938<40th-Cir,-2005)-(citmg_MQ//ey_v_
Marathon Oil Co., 71 F.3d 1547, 1550 (10th Cir. 1995)) (explaining discovery orders are
11
AnnAnHiy F

456
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 12 of 30

exercise meaningful discretion .... (2) commits an error of law. such as applying an
incorrect legal standard or misapplying the correct legal standard, or (3) relies on clearly
erroneous factual findings. ”30
IV.

Discussion
a. Discovery Orders

The Debtor assigns error to several of the Bankruptcy Court’s orders related to
discovery issues. First, the Debtor argues the Bankruptcy Court erred in requiring him to
provide evidence of his medical conditions in discovery in order to introduce that
evidence at trial. Next, the Debtor argues the Bankruptcy Court erroneously denied his
motion to strike the affidavit of Christopher Bolander as an exhibit to the Motion for
Summary Judgment. Finally, the Debtor argues the Bankruptcy Court erred in denying
his request for a full transcript of the deposition the Department took of him.
i. Discovery Related to the Debtor’s Medical Condition
The Debtor argues the Bankruptcy Court erred when it determined the Department
did not receive sufficient notice to take discovery of issues related to his medical
condition. As such, the Debtor asserts the Bankruptcy Court abused its discretion in
disposing of the Department’s Discovery Motion by giving the Debtor the option of
pening discovery regarding his medical issues or excluding all evidence of the
either reo
Debtor’s medical condition at trial.

review for abused of discretion); Gust v. Jones, 162 F.35 587, 598 (10th Cir. 1998)

12
Annonrliv F

466
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 13 of 30

We find support for the Bankruptcy Court’s decision in Tenth Circuit case law.
The “[o]ne clear purpose of the federal discovery rules is to facilitate fact finding and
prevent unfair surprise.”31 To prevent such surprise, a trial court may order the reopening
of discovery at its discretion.32 The Tenth Circuit recognizes
several relevant factors in reviewing decisions concerning whether
discovery should be reopened. These include: 1) whether trial is imminent,
2) whether the request is opposed, 3) whether the non-moving party would
be prejudiced, 4) whether the moving party was diligent in obtaining
discovery within the guidelines established by the court, 5) the
foreseeability of the need for additional discovery in light of the time
allowed for discovery by the district court, and 6) the likelihood that the
discovery will lead to relevant evidence.33
Furthermore, “[a] party that without substantial justification fails to disclose information
required by [Civil] Rule 26(a) ... is not, unless such failure is harmless, permitted to use
as evidence at a trial.. . any .

information not so disclosed.”34 “The determination of

whether a [Civil] Rule 26(a) violation is justified or harmless is entrusted to the broad
discretion of the [trial] court. A [trial] court need not make explicit findings concerning
the existence of a substantial justification or the harmlessness of a failure to disclose.”35

31
Dunlap v. City ofOkla. City, 12 F. App’x 831, 834 (10th Cir. June 7, 2001)
(unpublished) (citing Fed. R. Civ. P. 26)).
32
Smith v. United States, 834 F.2d 166, 169 (10th Cir. 1987) (citing United States v.
Reliance Ins. Co., 799F.2d 1382, 1387 (9th Cir. 1986)).
33
SIL-FLO, Inc. v. SFHC, Inc., 917 F.2d 1507, 1514 (10th Cir. 1990) (quoting
Smith, 834 F.2d at 169).
,
. „ J
34
Jacobsen v. Deseret Book Co., 287 F.3d 936, 952 (10th Cir. 2002) (quoting Fed.
R. Civ. P. 37(c)(1)).
__
"35
Woodworker’s SupplyClnc7vrPrincipal-Mut-bife-Ins^Go.^-\lS)F-3-&3%5,395----(10th Cir. 1999) (internal citations omitted).
13
AnnonHiv F

476
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 14 of 30

First, the Bankruptcy Court disposed of the adversary proceeding on summary
judgment, not at trial. Therefore, it relied on information either already discovered or
provided through affidavits The Debtor refused to disclose information regarding his
medical condition when objecting to the Discovery Motion and declined to introduce
evidence of his medical condition at trial.36 If the Debtor now contends there are genurne
rssues o f material fact related to his medical condition, he has waived that issue by not
agreeing to the discovery before trial.
The Debtor’s arguments are not compelling. The Debtor reltes on precedent from
outside the Tenth Circuit to argue he cannot be compelled to provrde corroboratmg
evidence by expert testimony or documentation when it imposes an unnecessary and
undue burden and may be established by the debtor’s testimony.38 However, contrary to
the Debtor’s argument, the Bankruptcy Court’s order on the Discovery Motion did not
require the Debtor to provide expensive expert evidence to corroborate his medical
condition. The Bankruptcy Court required the Debtor to either disclose any conditions he
intended to rely upon at trial to show undue hardship and allow further discovery related

36

Transcript at 34, in Appellant’s App. at 379 (“I will decline to address the medical

37
See Richison v. Ernest Grp., Inc., 634 F.3d 1123, 1127-28 (10th Cir. 2011) ( If the
theory is intentionally relinquished or abandoned in the [trial] court, we usually deem it
waived and refuse to consider it.”).
38
Appellant’s Br. 48 (first citing Barrett v. Educ. Credit Mgmt. Corp. (In re Barrett),
487 F 3d 353 (6th Cir. 2007) (holding debtor did not have to present expert medical
evidence to corroborate medical condition) and then citing Educ. Credit Mgmt. Corp. v.
Master (lrt re Mosley), 494 F.3d 1320 (11th Cir. 2007) (holding expert medical evidence
independent of a debtor’s testimony is not necessary-to-establish-undue-hardship.under_
§ 523(a)(8))).
14
Annonrliv P

48B
BAP Appeal No. 20-2

Filed: 07/22/2020

Docket No. 51

Page: 15 of 30

to those conditions or waive the introduction of evidence at trial. The Bankruptcy Court
made this decision in light of the impending trial and the Department’s efforts to obtain
evidence of his medical condition during the discovery period. The Debtor cannot have it
both ways. He alleged medical issues that precluded him from repayment of his student
loans, but refused to provide the information that might excuse him from repayments.
Accordingly, the Bankruptcy Court did not abuse its discretion in disposing of the
Discovery Motion.
ii. Debtor’s Trial Exhibits
The Debtor argues the Bankruptcy Court abused its discretion by precluding him
from introducing exhibits at trial after finding he did not serve the exhibits on the
Department by the deadline set out in the pretrial scheduling order. Because the
Bankruptcy Court decided the issue on summary judgment and considered the exhibits
included in the Debtor’s response to the Motion for Summary Judgment, we need not
consider this argument.
iii. The Motion to Strike
The Debtor argues the Bankruptcy Court abused its discretion by denying his
motion to strike the affidavit of Christopher Bolander, one of the Department’s
employees, as an exhibit to the Motion for Summary Judgment. The Debtor bases his
argument on a pretrial order that limited the parties to two witnesses each, only one of
which could qualify as an expert witness. The Debtor argues the Bankruptcy Court erred
by failing to consider Bolander as an expert witness pursuant to Federal Rule of Evidence
702.
15
Annfindix F

49e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 16 of 30

Civil Rule 56 requires that affidavits supporting a motion for summary judgment
“be made on personal knowledge, set out facts that would be admissible in evidence, and
show that the affiant or declarant is competent to testify on the matters stated. 39 At
[the] summary judgment stage, evidence need not be submitted in a form that would be
admissible at trial,’ but ‘the content or substance of the evidence must be admissible.

s»40

The Debtor’s argument fails for several reasons. First, the Bankruptcy Court
disposed of the adversary proceeding at summary judgment, meaning it took no witness
testimony, and Federal Rule of Evidence 702 does not apply. Next, even if Federal Rule
of Evidence 702 did apply, Mr. Bolander’s affidavit states facts instead of opinions. Mr.
Bolander described facts as they pertain to the Debtor’s student loan, including the
promissory notes, the outstanding balance, the payment history and switch to alternative
repayment plans, and details regarding the Department’s options for repayment.41 Mr.
Bolander based his declaration on his position at the Department and his review of the
Debtor’s loan information and payment history. Therefore, even if the adversary had
gone to trial, Mr. Bolander could appear and testify regarding the facts within his
knowledge.
To the extent the Debtor argues Mr. Bolander’s affidavit violated the parties joint
discovery report,® the argument is baseless. The limitation of experts applies to an expert

39

Fed. R. Civ. P. 56(c)(4).

,

(quoting Argo v.
2006)) Declaration of ChristdpMrBolmderrin-Appd\ani-s-App.-aXAAS)
42

Joint Report at 2, in Appellant’s App. at 14.
16
AnnpnHiy F

50c
BAP Appeal No. 20-2

a party intends to “use

Docket No. 51

Filed: 07/22/2020

Page: 17 of 30

at trial to present evidence” in the form of an opinion.43 The

procedural rules on summary judgment do not limit the number of affidavits allowed , and
even

if affidavits were limited, the Department only included one. Accordingly, the

Bankruptcy Court did not abuse its discretion in denying the Debtor’s motion to strike
Mr. Bolander’s declaration.
iv. The Debtor’s Deposition Transcript
Finally, the Debtor argues the Bankruptcy Court erred in failing to compel the
Department to provide him with a full copy of the transcript of his deposition . In the
Debtor’s request for a full transcript, he acknowledged the Tenth Circuit held “[tjhere is
no

statutory requirement that the government provide a litigant proceeding in forma

pauperis with a copy of his deposition transcript,

„44

Regardless, the Debtor still sought a

copy pursuant to Civil Rule 30, which provides
[ulnless otherwise stipulated or ordered by the court, the officer must retain
the stenographic notes of a deposition taken stenographically or a copy ot
the recording of a deposition taken by another method. When paid
reasonable charges, the officer must furnish a copy of the transcript or
recording to any party or the deponent.

Fed. R. Civ. P. 26(a)(2)(A) (emphasis added).
. .
„
44
Response to Defendant’s Motion for Summary Judgment at 13, in Appellant s
App. at 442 (citing Burns v. Gray, 106 F.3d 413,1997 WL 26534, at *1 (10th Cir. Jan.
24,1997) (unpublished)).
45
Fed. R. Civ. P. 30(f)(3) (emphasis added).
17
43

AnnenHiy F

BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

51e

Page: 18 of 30

Accordingly, the general rule “is that a party must obtain copies of deposition transcripts
from the court reporter upon the payment of a reasonable charge, and not from opposing
counsel or the court. 5546
The Debtor argues Civil Rule 56(d) required the Bankruptcy Court to order the
Department to provide a copy of the deposition transcript. Civil Rule 56(d) states that if a
nonmovant shows facts essential to justify opposition are unavailable to the nonmovant,
the court may issue any appropriate order. The Debtor argues that without the full
transcript, he could not adequately oppose the Motion for Summary Judgment.
First, this argument is disingenuous as the Debtor seeks a transcript of his own
deposition, and we must presume he has knowledge of his own testimony. Furthermore,
as the Bankruptcy Court concluded, the Debtor did not comply with the procedural
requirements of Civil Rule 56(d). That rule requires the party opposing summary
judgment to “present an affidavit that identifies ‘the probable facts not available and what
steps have been taken to obtain these facts.

?»47

Such “motions [should] be robust, and . ..

‘[an] affidavit’s lack of specificity’ counsels against a finding [of] abuse [of]
discretion ”48 yhe Debtor did not submit an affidavit in support of his Civil Rule 56(d)
request to the Bankruptcy Court, and we find no evidence in the record that he adequately

«
Schroer v. United Slates, 250 F.R.D. 531, 537 (D. Colo. 2008) (denying plaintiffs
request for deposition transcript in lawsuit against the Internal Revenue Service). Also
cited by Nitka. Response to Defendant’s Motion for Summary Judgment at 13, in
47^

pins v JR ’s Country Stores, Inc., 779 F.3d 1184, 1206 (10th Cir. 2015) (quoting

F.D.I.C. v. Arciero, 741 F.3dmi7nT6-(T0th-eirr2OJ-3))7------------------ -----------------Id. (quoting Trask v. Franco, 446 F.3d 1036, 1042 (10th Cir. 2006)).
48
18
Annonrliv F

52c
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 19 of 30

preserved his Civil Rule 56(d) argument first before the Bankruptcy Court. Instead, the
Debtor simply “declared” that he was unable to adequately review an essential record.
Therefore, the Court will not consider this argument.
The Debtor also relies on Federal Rule of Evidence 106, which allows an adverse
party to require the entirety of a writing to be admitted into evidence to allege error. As
the United States District Court for the District of New Mexico explained, applying
Federal Rule of Evidence 106 at the summary judgment stage is improper as its
application “typically arises during trial in the context of determining whether part of an
exhibit may be introduced or whether all of it must be introduced.”49 We agree with the
New Mexico District Court that there does not appear to be “any published case law that
applies Rule 106 to the [Civil] Rule 56 summary judgment stage.”50 Accordingly, we find
no error.
Finally, the Debtor argues the Bankruptcy Court should have struck the deposition
transcript from the Motion for Summary Judgment because the deposition would not be
admissible as the Department failed to follow the service procedures set forth in Civil
Rule 5(d)(1). Civil Rule 5(d)(1) provides “[depositions ... are not automatically filed
with the court” as they “must not be filed until they are used in the proceeding or the
court orders filing.”51 However, Colorado Local Bankruptcy Rule 7056 states when a

49
Castillo v. City of Albuquerque, No. CIV 01-626, 2002 WL 35649869, at *2 n.l
(D.N.M. July 1, 2002) (unpublished).
50
Id.

T\---- ^77^/rir/7^5r5-49-FT3-d-l-3-l-3-l-3T8 (-10th-Cirf-2Q08.)-(quQtingJed.R. Civ.
P. 5(d)(1)).
19
Anmanrliv F

53e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 20 of 30

motion references a deposition, “a copy of the relevant excerpt from the document must
be attached.”52 The Motion for Summary Judgment included excerpts from the deposition
transcript as an exhibit pursuant to the Bankruptcy Court’s local rules. Accordingly, the
Bankruptcy Court did not err in failing to strike the relevant excerpts from the Debtor’s
deposition transcript.

52

Bankr. D. Colo. L.R. 7056(c) (emphasis added).
20
Annonrliv F

54e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 21 of 30

b. Denial of the Debtor’s Motion for Direct Certification
The Debtor argues the Bankruptcy Court erred in denying his request to certify his
appeal of the Discovery Order directly to the Tenth Circuit because the appeal involved a
question of law on which there is no controlling decision by the Tenth Circuit or the
Supreme Court. This Court dismissed the Debtor’s appeal of the Discovery Order as
interlocutory, mooting the Debtor’s argument. However, even if the Bankruptcy Court
erred in denying direct certification of that appeal, we agree with the Ninth Circuit
Bankruptcy Appellate Panel that upon disposition of this appeal, the Debtor “now [has] a
direct path of appeal to the [Tenth] Circuit without need for a Rule 8006 certification.
Reversing the [Bankruptcy [C]ourt on this point would be impractical and a waste of
judicial resources. ”53
c. The Bankruptcy Court did not err in granting the Motion for
Summary Judgment
i. Standards for Discharging a Debt Pursuant to § 523(a)(8)
Student loan debts are difficult to discharge in bankruptcy. The text of the
Bankruptcy Code excepts obligations to repay a qualified educational loan from
discharge “unless excepting such debt from discharge .. . would impose an undue
hardship on the debtor and the debtor’s dependents.”54 The Bankruptcy Code does not
define the phrase “undue hardship.” Accordingly, courts developed a judicial test to
determine whether repaying an educational loan would result in undue hardship based on

«
54

jn re Tomkow, 5'63“B:R771'6r73-l-(9th-eir.-BAP-2f)l-7-)—
11U.S.C. § 523(a)(8).
21
Annpndiv F

556
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 22 of 30

the debtor’s circumstances. This test, known as the Brunner test,55 requires a debtor to
show:
(1) that the debtor cannot maintain, based on current income and expenses,
a “minimal” standard of living for herself and her dependents if forced to
repay the loans; (2) that additional circumstances exist indicating that this
state of affairs is likely to persist for a significant portion of the repayment
period of the student loans; and (3) that the debtor has made good faith
efforts to repay the loans.56
Courts applying the Brunner test often “constraint ] the three Brunner requirements to
deny discharge under even the most dire circumstances.

”57

Like many other courts, the Tenth Circuit adopted the Brunner test to determine
whether government-backed student loans impose an undue hardship on a debtor.58 The
Tenth Circuit’s analysis of undue hardship provides a discharge of student debt should
be based upon an inability to earn and not simply a reduced standard of living. 59 When
applying the Brunner test, the first prong “should serve as the starting point for the undue
hardship inquiry because information regarding a debtor’s current financial situation
generally will be concrete and readily obtainable.
realistic look

55

”60

The second prong requires “a

. into debtor’s circumstances and the debtor’s ability to provide for

Derived from Brunner v. New York State Higher Educ. Serv. Corp., 831 F.2d 395

56
Roe v. Coll. Access Network (In re Roe), 295 F. App’x 927, 929-30 (10th Cir. Oct.
9, 2008) (unpublished) (quoting Educ. Credit Mgmt. Corp v. Polleys (In re Polleys), 356
F.3d 1302,1307 (10th Cir. 2004)).
57
Polleys, 356 F.3d at 1308 (citing cases summarizing examples ot dire
circumstances)
58

59
Polleys, 356 F.3d at 1306 (quoting Cuenca v. Dep ’t ofEduc., 64 F.3d 669,1995
WL 499511, at *2 (10th CirrAug._23,1995) (unpublished-))-.
60
Polleys, 356 F.3d at 1310.
22
Annonrliy F

566
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 23 of 30

adequate shelter, nutrition, health care, and the like;” however, the debtor need not show
“a ‘certainty of hopelessness, ”’61 The final prong requires “focus [ing] on questions
surrounding the legitimacy of the basis for seeking a discharge” and whether the debtor
“willfully contrivefd] a hardship.”62 “Good faith, however, should not be used as a means
for courts to impose their own values on a debtor's life choices.

>’63

The Tenth Circuit’s application of the Brunner test provides bankruptcy courts
“with the discretion to weigh all the relevant considerations” and apply the test “such that
debtors who truly cannot afford to repay their loans may have their loans discharged.

j’64

A student loan creditor bears the burden of proving an obligation is an educational loan
falling within § 523(a)(8)’s discharge exception; however, “the debtor has the burden of
proving that repayment would constitute an undue hardship” pursuant to § 523(a)(8).65
ii. The Bankruptcy Court’s Decision
The Bankruptcy Court in a well-reasoned opinion applied the Brunner test to the
facts, concluding: (1) the Debtor met the requirement of showing he could not maintain a
minimal standard of living in addition to repaying his student loans; (2) the Debtor failed
to show his current financial condition is likely to exist for a significant portion of the
repayment period; and (3) although there was conflicting evidence as to the Debtor’s

61

Id.
62
Id.
63
Id. (citing Robert F. Salvin, Student Loans, Bankruptcy and the Fresh Start Policy:
Must Debtors be Impoverished to Discharge Educational Loans?, 71 Tul. L.Rev. 139,
197(1996)).
64
Id. at 1309.
~---- ---------------------------------65
Francis, C. Amendola, et al, 8B C.J.S. Bankr. § 1105 Burden of Proof (2020).
23
AnnpnHiy F

57e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 24 of 30

good faith, when viewed in the light most favorable to the Debtor, the final element
favored finding he acted in good faith. Reviewing the decision on summary judgment de
novo, we consider the facts asserted and the application of the legal standard without
deference to the Bankruptcy Court.
1. Genuine Issues of Material Fact
Summary judgment is proper upon a showing that there are no genuine issues of
material fact, and the moving party is entitled to judgment as a matter of law.66 The
Debtor takes issue with the Bankruptcy Court’s reliance on the undisputed facts. The
Bankruptcy Court analyzed the undisputed facts proffered by the Department, finding the
Debtor failed to follow the procedural rules to object to the Department’s facts and failed
to allege any additional material facts in dispute.67 Although the Civil Rules allow a court
to consider facts undisputed unless properly rebutted, the Bankruptcy Court “reviewed all
of the 49 proffered undisputed facts ... and compared such facts to the record citations,”
concluding “[ejvery alleged undisputed fact [was] accurate and fully supported in
accordance with Fed. R. Civ. P. 56 and L.B.R. 7056-1.

”68

Our independent review of the

record confirms there is support for each undisputed fact alleged.
Although the Debtor takes issue with all of the undisputed facts, he assigns error
to two specific facts in his appellate briefing. First, the Debtor argues the Bankruptcy

Court incorrectly considered his total wages in 2016 as approximately $83,000 when tax

66
LTF Real Estate Co. v. Expert S. Tulsa, LLC (In re Expert S. Tulsa, LLC), 522
B.R. 634, 643 (10th Cir. BAP 2014).
____ ____ ^
67
Opinion, at 1477/FA"ppellant,s_Apprat-605-(citing-Golo-L-BvR.-7056J(b)(3)-(4)-)68
Id., in Appellant’s App. at 605.
24
Annpnrliv F

58c
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 25 of 30

records show he only earned $54,643. The Bankruptcy Court “accepted] that the
in 2016.”69 Our review
[Debtor’s] ‘Taxable Social Security Earnings’ were $54,643 in
suggests that even if the Debtor’s 2016 earnings were only $54,643, this was sufficient
income to allow him to repay his student loan under an income-driven repayment plan.
Next, the Debtor argues the Bankruptcy Court improperly accepted the amount of
his student loan payment as $0, when one statement received in June 2018 reflects a
payment amount of $1,878.30.7° Our review of the record indicates that correspondence
from the loan servicer instructs the Debtor to recertify his income-driven plan to have his
loan placed in forbearance and brought current.71 Furthermore, the record indicates the
loans returned to forbearance status as of October 2019.72 Accordingly, the Debtor s
argument fails to account for all the evidence of the payment amount contained in the
record. As such, we find no error in the Bankruptcy Court’s acceptance of the payment
amount.
2. Application of the Brunner Test
The Bankruptcy Court found the Department met its burden of establishing a
qualified education obligation and placed the burden of satisfying the Brunner test on the
Debtor. The Bankruptcy Court then concluded elements one and three of the test weighed
in the Debtor’s favor. Therefore, we focus our analysis on the second element of the
Brunner test requiring “that additional circumstances exist indicating that this state of

69
70
71
72

Opinion at 17, in Appellant’s App. at 608.
June 2018 Statement, in Appellant’s App. at 1113.
Correspondence, in Appellant’s Apprat~l~H 5:
Exhibit B, in Appellant’s App. at 686.
25
AnnonrliY F

59e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 26 of 30

affairs is likely to persist for a significant portion of the repayment period of the student
loans. ”73 The Bankruptcy Court concluded the Debtor failed to carry his burden of
showing his financial situation is not likely to improve. The Bankruptcy Court based this
conclusion on facts indicating the Debtor is highly educated and possesses a variety of
job experiences but has not made diligent efforts to obtain stable employment.
The Debtor’s employment and income history indicates he earned enough to make
at least a minimal student loan payment under an income-driven repayment plan when he
was employed. Although the Debtor is no longer employed and his financial condition
has changed, he failed to show that this financial condition is likely to persist for the life
of the loan . Evidence in the record indicates he is pursuing entrepreneurial goals of
developing a mobile payment application and converting a bus into a vacation rental.
These endeavors suggest the Debtor still possesses skills and abilities that translate to a
variety ofjobs ranging from professional careers to general labor. This also suggests that
the Debtor’s current situation need not persist for the duration of the repayment period.
Accordingly, the Bankruptcy Court did not err in concluding the Debtor failed to carry

73
Roe v Coll. Access Network (In re Roe), 295 F. App’x 927, 929 (10th Cir Oct. 9,
2008) (unpublished) (quoting Educ. Credit Mgmt. Corp v. Polleys (In re Polleys), 356
F.3d 1302, 1307 (10th Cir. 2004)).
74
The Debtor’s appellate briefing does not assign error to the Bankruptcy Court s
conclusions under the Brunner test, instead distinguishing the facts in his case from cases
cited by the Department in its Motion for Summary Judgment. Appellant s Br. 56-59.
The Debtor’s sole reference to the requirement of showing his financial state is likely to
nersist for the duration of the repayment period objects to facts deemed undisputed.
Appellant’s Br. 58. Asalready-discussedrtheBankruptcy-Court’-S-finding.of the--------undisputed fact is not clearly erroneous.
26
Annftnrlix F

605
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 27 of 30

his burden of showing his circumstances will continue for a significant portion of the
repayment period.75
The Debtor argues the Bankruptcy Court erred in recognizing the law as it applied
to the facts in his case. First, he argues the Tenth Circuit does not require a plaintiff to
show maximization of earning potential to demonstrate undue hardship. Reviewing the
Bankruptcy Court’s opinion, the court ultimately concluded case law addressing income
maximization is only persuasive and not precedential; therefore, the Bankruptcy Court
did not address the Debtor’s effort to maximize his income.76 The Debtor also argues
cases cited by the Department are not precedential and are distinguishable from his case.
As the specific cases the Debtor references were either not cited by the Bankruptcy Court
we
or were cited to articulate the legal standard of review and not for factual companson,
find no merit in the Debtor’s arguments.77

75
The Debtor appears to argue the entire $209,716.48 balance of his student loan is
past due and the repayment period has ended without pointing to any evidence to support
this contention. However, the loan servicing records indicate the loan is in forbearance
based on the filing of the bankruptcy petition. Exhibit B, in Appellant s App. at 686;
Exhibit C at 106-07, in Appellant’s App. at 797-98.
76
Opinion at 27, in Appellant’s App. at 577 (“[Gesualdi v. Educ. Credit Mgmt.
Corn. (In re Gseualdi), 505 B.R. 330, 339 (Bankr. S.D. Fla. 2013)] certainly supports the
[Department]’s argument. It has some persuasive value, but it is not precedential )
77
The Debtor argues Cuenca v. Dep ’t ofEduc., 64 F.3d 669,1995 WL 499511, at
noth Cir. Aug. 23, 1995) (unpublished)) is factually distinguishable. The Bankruptcy
Court did not cite Cuenca or analogize to its facts. The Debtor argues the facts^of Brown
v. Sallie Mae, Inc. (In re Brown), 442 B.R. 776 (Bankr. D. Colo. 2010) also differ from
his case. The Bankruptcy Court cited Brown to establish that all three elements o e
Brunner test must be met to prove undue burden and to suggest income maximization
should be considered as part of the second element, if at all. Opinion at 26 2]>m
Appellant’s App. at 576, 577 (citing among other cases Brown, 442 B.R. at 781-82). 1 he
Debtor argues the DepartmenfimpropeTly-cited-cases-from-the bankruptcy-Courts for.the.
Middle District of Pennsylvania and the Southern District of Florida. The Bankruptcy
27
Annendix F

6U
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 28 of 30

d. Denial of the Debtor’s Motion for Sanctions
Finally, the Debtor argues the Bankruptcy Court erred in denying his motion to
sanction the Department for making false statements of fact in the Motion for Summary
Judgment. The Debtor argued the following assertions were incorrect: (1) that he first
raised reliance on medical issues as support for finding undue hardship in his
supplemental discovery responses; (2) that he was 37 years old instead of 36; (3) that he
was not looking for employment since the spring of 2018; and (4) that his taxable income
i
in 2015 was $28,856 instead of $61,901, and in 2016 was $54,643 instead of $83,000.78
The Debtor also alleged the Department improperly listed two expert witnesses in
violation of the parties’ joint report.79 The Bankruptcy Court denied the Debtor’s motion
for sanctions80 and a motion to reconsider the denial.81
We review a ruling on a motion for sanctions for abuse of discretion.

The

Supreme Court has held Bankruptcy Rule 9011 “authorizes the court to impose sanctions
for bad-faith litigation conduct..

The court may also possess further sanctioning

authority under either § 105(a) or its inherent powers.”83 The failure to follow the “safe

Court did not cite to a case from Pennsylvania and stated the case from the^ Southern
District of Florida had “some persuasive value, but [was] not precedential. Id. at 27, in
Appellant’s App. at 577.
78
Plaintiff’s Motion for Sanctions, in Appellant’s App. at 417.
79
Id. at 8, in Appellant’s App. at 424.
Order Denying Plaintiff’s Motion for Sanctions, in Appellant s App. at 535.
80
81
Order Denying Plaintiff’s Motion to Reconsider Order Denying Plaintiff’s Motion
for Sanctions, in Appellant’s App. at 545.
Gustv. Jones, 162 F. 3 53877398X^^1^-998*-------------------------------------83
Law v. Siegel, 571 U.S. 415,427 (2014) (internal citations omitted).
28
A nncmrliv P

62e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 29 of 30

harbor” procedures “[should] result in the rejection of the motion for sanctions.

”84

Concluding otherwise constitutes an abuse of discretion.85
The Bankruptcy Court based its order denying the Debtor’s motion for sanctions
on Bankruptcy Rule 9011(c)(1)(A)’s “safe harbor provision,” which requires a movant to
serve a motion for sanctions on a party and allow the party twenty-one days to correct
errors in a pleading as the basis for denying the motion. In his motion to reconsider the
order

denying the Motion for Sanctions, the Debtor requested the Bankruptcy Court take

notice of the Department’s many false assertions and award sanctions on its own motion
pursuant to Bankruptcy Rule 901 l(c)(l)B).86 Bankruptcy Rule 9011(c)(1)(B) allows a
court to issue sanctions on its own initiative upon finding a violation of 9011(b). The
Bankruptcy Court reviewed the facts alleged by the Department in the Motion for
Summary Judgment and concluded “[e]very alleged undisputed fact [was] accurate and
fully supported in accordance with Fed. R. Civ. P. 56 and L.B.R. 7056-1.

”87

On appeal,

the Debtor points to no evidence in the record indicating he complied with Bankruptcy
Rule 9011 ’s “safe harbor” provision and does not identify any specific facts the
88
Department misrepresented in the Motion of Summary Judgment. Accordingly, the

84
Roth v. Green, 466 F.3d 1179, 1192 (10th Cir. 2006) (quoting 5A Charles Alan
Wright & Arthur R. Miller, Federal Prac. & Procedure § 1337.2, at 723 (3d ed. 2004)).
85

Id. at 1193.
o
. .
Motion to Reconsider Order Denying Motion for Sanctions at 1, n.2, in
Appellant’s App. at 539.
87
Opinion at T^i7rApp^antVApp.--at-6G5--------- -------------------------88
See Appellant’s Br. 37-38.
29
86

Annfindix F

63e
BAP Appeal No. 20-2

Docket No. 51

Filed: 07/22/2020

Page: 30 of 30

Bankruptcy Court did not abuse its discretion in denying the Debtor’s motion for
sanctions.
V.

Conclusion

While the Bankruptcy Code presumptively excepts student loan obligations from
discharge, the Tenth Circuit instructs bankruptcy courts to apply the Brunner test “such
that debtors who truly cannot afford to repay their loans may have their loans
discharged.”90 In this case, the undisputed facts establish that the Debtor previously held
gainful employment. Although the Debtor is currently experiencing financial difficulty,
he presented no evidence to the Bankruptcy Court tending to show his financial condition
is likely to persist for the duration of his repayment period as required by the second
element of the Brunner test. Instead, the record before this Court suggests the Debtor has
not really tried to find work or leave the confines of his mother’s home, and would prefer
to be self-employed rather than obtain gainful employment. The record before this Court
supports the conclusion the Debtor “seems to have given up any serious efforts at
employment.”91 Accordingly, judgment of the Bankruptcy Court is AFFIRMED.

89
The Debtor argues the Bankruptcy Court erred in failing to consider his motion for
sanctions pursuant to Fed. R. Civ. P. 56(c)(2) and Model R. Prof. Conduct 3.3(a)(1) Civil
Rule 56(c)(2) provides no authority to sanction a party. Model R. Prof. Conduct 3.3(a)(1)
provides “[a] lawyer shall not knowingly make a false statement of fact or law to a
tribunal.” As the Bankruptcy Court found “[ejvery alleged undisputed fact [was] accurate
and fully supported in accordance with Fed. R. Civ. P. 56 and L.B.R. 7056-1,” we find no
basis for the Debtor’s argument under Model R. Prof. Conduct 3.3(a)(1). Opinion at 14,
in Appellant’s App. at 605.
, „,
90
Educ. Credit Mgmt. CorprvrPo7/By5T356-FT3d-l-302—l-3O9-(-l-0th-Cir..2004_)-------91
Opinion at 29, in Appellant’s App. at 579.
30
Annpnrliv F

